Office of Inspector General


U.S. Department of State
and the   Broadcasting Board of Governors




Semiannual Report to the Congress

                  April 1 to September 30, 2000
                Summary of OIG Accomplishments


       Financial Results:

       Questioned costs
          Issued during the reporting period                              $ 2,828,000
          Management decision during the reporting period                 $    47,000
       Recommendations for funds to be put to better use
          Issued during the reporting period                              $            0
          Management decision during the reporting period                 $            0
       Investigative recoveries                                           $   278,833

       Investigative Results:

       Cases opened                                                                  43
       Cases closed                                                                  46
       Judicial actions                                                              56
       Administrative actions                                                        28
       Hotline and complaint activity                                               178

       Reports Issued:

       Audits                                                                        20
       Inspections                                                                   12
       Security and Intelligence Oversight reviews                                   27
       Contract audits                                                                9




               Pictured on front cover is the U.S. Embassy Santiago,
               Chile. Embassy Santiago is noted as a model of good
               management and teamwork. See page 24 for the full
               narrative on the inspection report of Embassy Santiago.
               Rendering courtesy of A/FBO Image Archive.




60 .                    Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000
                 Office of Inspector General

                 U.S. Department of State
                 and the Broadcasting Board of Governors




                 Semiannual Report to the Congress

                                    April 1 to September 30, 2000




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000   61 .
Table of Contents
             Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            1
             Congressional Activities and OIG Outreach . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        7

             U.S. Department of State
                     Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    15
                     Inspections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     23
                     Security and Intelligence Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   29
                     Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      30
                     Appendix 1: Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  36
                     Appendix 2: Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                37
                     Appendix 3: Savings and More Effective Use of Resources
                           Table 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               39
                           Table 2: Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    40
                     Appendix 4: Resolution of Reports and Recommendations
                           Previously Reported Significant Audit Recommendations . . . . . . . . . . . . . . . . . . . . . . . . .                                   41
                           Audit Reports Pending Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                               42

             Broadcasting Board of Governors
                     OIG Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        49
                     Appendix 1: Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  51
                     Appendix 2: Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                51
                     Appendix 3: Savings and More Effective Use of Resources
                           Table 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               52
                           Table 2: Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    52
                     Appendix 4: Resolution of Reports and Recommendations
                           Audit Reports Pending Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                               53
             Abbreviations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       54
             Index of Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   55




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                                                                        57 .
Executive Summary
                                               During this semiannual period, the Office of Inspector General
                                               (OIG) conducted reviews of the Department’s counternarcotics efforts in
                                               Colombia, the Exchange Visitor Program, counterintelligence programs,
                                               and overseas allowances, as well as other programs. OIG also issued an
                                               unqualified opinion on the Department’s 1999 and 1998 Principal
                                               Financial Statements. OIG reviewed several grants and contracts admin-
                                               istered by the Department of State or former United States Information
                                               Agency and reported nearly $3 million in unsupported or unallowable costs.
                                               OIG inspected posts in Africa, Central and South America, Europe, and
                                               Canada. Security Oversight reviews were conducted at 10 posts, in addi-
                                               tion to other security oversight projects. OIG visa fraud investigations
                                               conducted in coordination with other entities resulted in several arrests and
                                               the seizure of more than $1.8 million in cash, gold bars, and other assets.
                                                   In the wake of reported security lapses in the Department, OIG testi-
                                               fied before Congress on the Department’s domestic and overseas security
                                               programs. In May, the Inspector General testified before the House
                                               Permanent Select Committee on Intelligence and the House Committee
                                               on International Relations on OIG oversight and OIG’s report Protecting
                                               Classified Documents at Main State Headquarters. The Inspector
                                               General also discussed the Department’s response to the security lapses.
                                                   The Inspector General also testified before the House Committee
                                               on International Relations on OIG oversight and OIG’s report Review of
                                               FY 1999 Emergency Supplemental Appropriations. At the hearing, the
                                               Inspector General also discussed the Department’s Response to the Over-
                                               seas Presence Advisory Panel Report, and other management initiatives
                                               undertaken by the Bureau of Diplomatic Security to enhance the Depart-
                                               ment’s security programs.
                                                   The OIG continued to play an active role in global anticorruption
                                               efforts. In June, the Secretary of State and the Argentine Foreign Minister
                                               signed a Memorandum of Agreement for a cooperative exchange between
                                               the OIG and the Anticorruption Office of the Argentine Republic. The
                                               Inspector General held a digital video conference in August to identify
                                               areas of mutual interest for further exchange. OIG also participated in two
                                               Worldnet broadcasts addressing international anticorruption issues.
                                                   Finally, OIG reviewed and updated its strategic plan for 2001 through
                                               2006. The strategic plan reflects a significant rethinking of OIG’s strategic
                                               goals and planning framework. The plan has evolved to focus on the pri-
                                               mary issues affecting the efficiency, effectiveness, and integrity of State




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                             1 .
      Department and Broadcasting                    Colombian contractor pilots and
      Board of Governors (BBG) pro-                  mechanics who support counter-
      grams and operations. These issues             narcotics efforts, and aviation fuel
      include foreign policy, human re-              provided for the counternarcotics
      sources, financial management, in-             programs. OIG found internal con-
      formation technology, and security.            trol weaknesses in all three ac-
      To ensure that OIG remains flexible            counts. OIG was unable to account
      and responsive to the demands and              for approximately 469,000 gallons
      challenges of the Administration,              of aviation fuel or 17 percent of to-
      Congress, and an ever-changing                 tal fuel purchased. The review did
      world environment, OIG is currently            not identify specific evidence of
      examining how we can best struc-               unauthorized use of aviation fuel,
      ture our organization to achieve               but OIG could not dismiss the
      these goals.                                   possibility.
                                                          Through its inspections of over-
                                                     seas posts, OIG assessed the con-
                                                     duct of foreign relations, particularly
      Improved Conduct of                            the skills and abilities of senior man-
      Foreign Relations                              agement and the availability and use
                                                     of appropriate authorities and pro-
      In response to a congressional re-             cesses. During this semiannual peri-
      quest, OIG reviewed Bureau of In-              od, OIG inspected posts in Africa,
      ternational Narcotics and Law                  Central and South America,
      Enforcement Affairs (INL) coun-                Canada, and Europe.
      ternarcotics efforts in Colombia.
      OIG reviewed the experience and                     In Africa, OIG found heavy
      training of Department officers, the           demands placed on Embassy Gabo-
      chain of command structure, the                rone, Botswana due to the intensifi-
      use of American contractors, and               cation of U.S. interest in Africa,
      the configuration of aircraft trans-           particularly in southern Africa. The
      ferred to the Colombian National               United States is aggressively assist-
      Police. OIG found that despite                 ing Botswana in addressing the
      spending over $100 million on the              devastating medical and social chal-
      increased eradication efforts during           lenges presented by the HIV/AIDS
      FY 1997-99, it was uncertain                   epidemic. The Centers for Disease
      whether the current program has                Control are doubling their presence
      decreased the supply of drugs from             and expanding programs. All ele-
      Colombia. Furthermore, the Depart-             ments of the mission are engaged in
      ment’s efforts have had little mea-            this endeavor. OIG found that new,
      surable impact on the availability of          regional initiatives and the resulting
      drugs in the United States.                    responsibilities had led to an in-
                                                     crease in American direct-hire posi-
           OIG also reviewed the adequa-             tions without sufficient resources to
      cy of internal controls in three spe-          provide for administrative support.
      cific areas of the Department’s                OIG noted that additional increases
      program in Colombia: procurement               in staffing expected in summer 2000
      of local goods and services, civilian




2 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000
will further strain administrative                  The inspection of Embassy                  participation in mission programs,
support resources and space within             Santiago, a model embassy, demon-               especially in law enforcement, was
the chancery.                                  strated clearly what can be accom-              a model for embassies elsewhere.
                                               plished with good management,                   U.S. programs aimed at improving
     In its inspection of Embassy
                                               teamwork, adequate staff and re-                the rule of the law have scored
Addis Ababa, Ethiopia, OIG found
                                               sources, a secure yet attractive                some impressive results.
the U.S. foreign affairs establish-
                                               chancery, and functional facilities
ment was giving its full attention to                                                              OIG found the U.S. Mission to
                                               and equipment. OIG found that
the peaceful resolution of the con-                                                            the Organization for Security and
                                               front office attention to security
flict between Eritrea and Ethiopia,                                                            Cooperation in Europe effectively
                                               was thorough and morale and job
making it the Embassy’s top priority.                                                          engaged in reshaping the Organiza-
                                               satisfaction were high. The Ambas-
However, the imminent threat of                                                                tion for Security and Cooperation in
                                               sador and his deputy had provided a
drought and the consequent need                                                                Europe (OSCE) from a deliberative
                                               successful, well-balanced, coordi-
for food assistance also demanded                                                              forum into an operational organiza-
                                               nated approach to achieving U.S.
prompt attention. Under these cir-                                                             tion. OIG noted that mission inter-
                                               goals and objectives, with a particu-
cumstances, post management                                                                    agency cooperation was good,
                                               lar focus on public diplomacy. The
directed resources accordingly, allo-                                                          presenting an integrated diplomatic
                                               mission performance plan was used
cating fewer resources to certain                                                              and military perspective.
                                               as an effective guide to maximizing
other policy and program elements.
                                               bilateral relations. The post’s adop-                At the U.S. Mission to the Unit-
     In Latin America, OIG found               tion of Bureau of Consular Affairs              ed Nations Organization in Vienna,
strong leadership at our embassies             best practices had streamlined non-             Austria, OIG found the Mission fo-
for effective integration of program           immigrant visa processing, and                  cused on nuclear issues to the virtu-
implementation, and the mission                OIG recommended the implemen-                   al exclusion of narcotics and crime
performance plans were being used              tation of additional consular best              control, and that overall Mission
effectively to guide bilateral rela-           practices.                                      leadership needed strengthening.
tions. OIG’s inspection of Embassy                                                             OIG noted that the Mission strongly
                                                    The OIG review of Embassy
Buenos Aires, Argentina found the                                                              represented U.S. nonproliferation
                                               Managua, Nicaragua, found the
mission ably led by the chargé, de-                                                            interests on a strengthened nuclear
                                               post effectively engaged in develop-
spite a 3-year gap in the ambassa-                                                             safeguards regime designed to lo-
                                               ing possibilities for further coopera-
dor’s position. OIG found excellent                                                            cate materials deliberately diverted
                                               tion through programs aimed at
cooperation at all levels on cover-                                                            from peaceful use, however, De-
                                               consolidating democracy and
age of economic issues of mutual                                                               partment policy instructions to the
                                               strengthening national institutions.
interest, including successful promo-                                                          Mission on funding the International
                                               U.S. agencies are well integrated in
tion of U.S. exports, sharing of                                                               Atomic Energy Agency were incon-
                                               this effort. OIG stated that a new
contacts and information, and the                                                              sistent.
                                               chancery was urgently needed and
frequent and numerous high-level
                                               noted several administrative short-                  OIG’s Inspection of Embassy
visits. OIG noted that the fraudulent
                                               comings, including the need for a               Ottawa, Canada, noted three best
use of the visa-free Argentine pass-
                                               more proactive International Coop-              practices. The mission has inaugu-
port by third country nationals and
                                               erative Administrative Support Ser-             rated a junior officer conference,
alien smugglers to illegally migrate
                                               vices (ICASS) council and updated               the digital videoconferencing capa-
to the United States may have
                                               computer systems. At Embassy San                bilities of the public affairs section
an impact on U.S. border security
                                               Salvador, El Salvador, OIG found                have been utilized by other sections
and that the Embassy and the De-
                                               the management of interagency                   to hold substantive virtual bilateral
partment needed to better combine
                                                                                               negotiations and, at the Ambassa-
efforts to help the Argentine Gov-
                                                                                               dor’s initiative, a missionwide
ernment strengthen its immigration
                                                                                               speakers bureau was set up with
system.
                                                                                               funds provided for training speaker
                                                                                               participants.



Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                                     3 .
     OIG also reviewed International Broadcasting operations. In its review            More Effective, Efficient,
of BBG’s Transmission Delivery System, OIG found that BBG’s agency-                    and Secure Operations and
wide strategic plan did not comprehensively address the transmission deliv-            Infrastructures
ery system or how the agency plans to provide surge capacity to support
U.S. foreign policy objectives during crises abroad. OIG recommended                   During this reporting period, OIG
that the BBG more comprehensively address its strategic plans for the                  conducted several security over-
transmission delivery system, and demonstrate how the BBG will support                 sight projects. OIG reports were
U.S. foreign policy objectives during crises abroad.                                   issued on overseas posts’ compli-
                                                                                       ance with the physical security
    OIG’s review of the International Broadcasting Bureau (IBB) Techni-                standards and on the evaluations of
cal Monitoring Office in Vienna, Austria found an efficient operation with             Embassy Luanda, Angola, and Em-
competent staff and high morale. OIG made one recommendation concern-                  bassy Kampala, Uganda. Security
ing management of the certification of the time and attendance of the                  inspections were completed at em-
employees.                                                                             bassies Algiers, Algeria; Athens,
                                                                                       Greece; Berlin, Germany; Budap-
                                                                                       est, Hungary; Chisinau, Moldova;
                                                                                       Dhaka, Bangladesh; Ljubljana, Slov-
Better Alignment of Fiscal and Human Resources with                                    enia; Riga, Latvia; Vilnius, Lithua-
U.S. Foreign Policy Priorities                                                         nia; and Warsaw, Poland. These
                                                                                       reports are summarized in the clas-
OIG reported the results of our work on the Government Performance and                 sified annex to this report.
Results Act (Results Act) to the Chairman and Ranking Minority Member
of the Senate Committee on Governmental Affairs as requested. The In-                      OIG also reviewed the Depart-
spector General also testified on OIG’s Results Act work before the House              ment’s Counterintelligence Pro-
Committee on Government Reform, Subcommittee on National Security,                     gram. The audit focused on the
Veterans Affairs, and International Relations. Overall, we reported that the           process at the Department of State
Department’s strategic planning process had improved, but still did not fully          and selected other agencies for
comply with the Results Act. OIG noted that the Department has not de-                 screening assignments to overseas
veloped overall priorities for its strategic goals, and consequently has no            posts deemed “critical” for counter-
overall basis for allocating resources to priorities. OIG also reported that           intelligence threat; the Depart-
the Department’s initial Performance Report for FY 1999 provided minimal               ment’s counterintelligence
explanation of unmet goals and did not discuss the methods in place to                 awareness program; and the
collect and verify data.                                                               Department’s policies for reporting
                                                                                       contacts and relationships with
     OIG’s work has also highlighted the need for improved performance                 foreign nationals. A number of
information in the Department’s bureau-level plans. Additionally, OIG’s on-            recommendations were made to
going audit of mission-level plans uncovered several weaknesses in the pro-            improve procedures for screening
cess for developing plans at the Department’s overseas posts. For exam-                assignments to critical threat posts,
ple, mission performance plans have not provided the Department with the               counterintelligence awareness brief-
ability to gauge progress against a mission’s goals because of weak per-               ings, and contact and relationship
formance goals and indicators. OIG will continue to build a Results Act                reporting requirements.
component into many of our audits and inspections.
                                                                                            In another review, OIG exam-
                                                                                       ined the Exchange Visitor Program,
                                                                                       which facilitates educational and
                                                                                       cultural exchanges between U.S.
                                                                                       citizens and foreign nationals. OIG
                                                                                       found that the Department was un-
                                                                                       able to effectively administer and




  4 .                                   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000
monitor the program primarily be-              OIG also examined seven grants                  Statements, which means the finan-
cause of inadequate resources. The             totaling about $3 million awarded by            cial statements were free of materi-
Department’s lax monitoring had                the former United States Informa-               al misstatements. Although an
created an atmosphere in which                 tion Agency and the Department of               unqualified opinion was issued, the
program regulations could easily be            State to the Town Affiliation Asso-             report brought to management’s at-
ignored or abused. OIG encoun-                 ciation of the United States, Inc.              tention several concerns including
tered widespread violations of pro-            (the Association). OIG questioned               the Department’s noncompliance
gram regulations by some program               costs totaling $908,812. OIG also               with several laws and regulations.
sponsors.                                      found poor financial management
                                                                                                    During this semiannual period,
                                               and internal control weaknesses,
     OIG reviewed the Depart-                                                                  OIG also issued unqualified opinions
                                               and noncompliance with applicable
ment’s management of overseas                                                                  on the Foreign Service Retirement
                                               regulations and agreements. OIG
allowances in order to determine if                                                            and Disability Fund’s Financial
                                               recommended that the Association
the process was administered in                                                                Statements for FY 1999, the Inter-
                                               reimburse the Department for unal-
compliance with applicable rules,                                                              national Boundary and Water Com-
                                               lowable costs and provide additional
regulations, and guidance. OIG                                                                 mission’s Balance Sheet as of
                                               documentation for the unsupported
found that, overall, the allowance                                                             September 30,1999, and the finan-
                                               costs. Because the findings indicat-
setting process is well managed.                                                               cial statements of the International
                                               ed serious financial weaknesses,
However, OIG found discrepancies                                                               Cooperative Administrative Support
                                               OIG recommended that the Depart-
that were brought to the attention of                                                          Services Program’s 1999 and 1998
                                               ment also place the organization on
the Department. The Department                                                                 financial statements.
                                               a cost reimbursable basis for cur-
has taken action to comply with, or
                                               rent grants and restrict new awards
agreed to address, all four OIG rec-
                                               to the organization until the Associa-
ommendations.
                                               tion fully implements actions for as-
    As part of an overall effort to            suming financial capability.                    Greater Adherence to
review Freedom Support Act assis-                                                              Fundamental Principles
                                                    The Government Management
tance to the New Independent                                                                   Governing Professional
                                               Reform Act requires OIG to audit
States (NIS), OIG engaged certified                                                            and Ethical Conduct
                                               the Department’s Principal Finan-
public accountants to review
                                               cial Statements in order to obtain              OIG’s mandate is to prevent and
claimed costs by the American
                                               reasonable assurance and express                detect waste, fraud and misman-
Councils for International Education
                                               an opinion on whether the financial             agement. Specific allegations or
(ACIE) to determine if the indirect
                                               statements were free of material                other information indicating possible
and direct costs incurred and
                                               misstatements, to determine wheth-              violations of law or regulation are
claimed were allowable under the
                                               er the Department had an internal               investigated by OIG special agents
grant agreements, their terms and
                                               control structure that provided rea-            supported by other OIG offices as
conditions, and applicable Federal
                                               sonable assurance of achieving in-              appropriate. During this semiannual
laws and regulations. OIG found
                                               ternal control objectives, and to               period, OIG conducted investiga-
missing or inadequate documenta-
                                               determine whether the Department                tions in several areas, including visa
tion to support some direct and indi-
                                               complied with applicable laws and               fraud, passport fraud, nepotism, and
rect charges and items that were
                                               regulations. OIG issued an unquali-             theft.
unallowable under the grant terms
                                               fied opinion on the Department’s
and conditions. As a result, OIG                                                                   As a result of a joint investiga-
                                               1999 and 1998 Principal Financial
questioned costs totaling about $1.2                                                           tion with the Bureau of Diplomatic
million. OIG recommended that the                                                              Security (DS), a Foreign Service
Department require ACIE to reim-                                                               officer and a foreign national were
burse the Department for unallow-                                                              arrested in Chicago, Illinois, and
able costs and provide additional                                                              Miami, Florida, respectively, for the
documentation for the unsupported
costs.



Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                                     5 .
      sale of U.S. visas at a U.S. embas-            laundering, and false income tax
      sy. In addition, over $1.8 million in          returns. Resolution of these charges
      cash, gold bars, and other assets              was pending at the end of this re-
      representing the proceeds of the               porting period. This investigation
      visa sales were seized. The arrests            was conducted jointly with the Im-
      were the result of a lengthy joint             migration and Naturalization Service
      undercover operation conducted by              (INS) and the Internal Revenue
      agents of both OIG and DS. The                 Service.
      officer subsequently resigned from
                                                         In April 2000, OIG opened an
      the Foreign Service and has been
                                                     investigation based upon informa-
      incarcerated since his arrest. Prose-
                                                     tion provided by a U.S. District
      cution of both the officer and the
                                                     Attorney indicating that an individu-
      foreign national is currently pending.
                                                     al under indictment for defrauding
      As a result of the investigation, the
                                                     investors may have been involved in
      Department’s Bureau of Consular
                                                     passport fraud. In April, this individ-
      Affairs conducted an extensive as-
                                                     ual was arrested at an international
      sessment of consular operations at
                                                     airport while attempting to leave the
      the embassy.
                                                     United States, in violation of the
           In April 1998, OIG opened an              conditions of his bond. He had in his
      investigation based upon information           possession an altered U.S. passport.
      that officers of a company based in            He was indicted on a felony charge
      Northern Virginia were engaged in              of forgery or false use of a pass-
      a large-scale scheme to defraud the            port, as well as a felony charge of
      EB-5 investor visa program. Under              fraud relating to the Investment
      this program, U.S. visas may be                Advisers Act. The evidence indicat-
      issued to foreign nationals who in-            ed that he embezzled as much as
      vest at least $500,000 in a business           $9 million from clients’ accounts. In
      that creates jobs in a low employ-             August, he pleaded guilty to the
      ment area of the United States. In             charge of defrauding investors. At
      August, the two principal officers of          the end of this reporting period, he
      the company were indicted by a                 remained incarcerated as he await-
      federal grand jury on felony charges           ed sentencing.
      of visa fraud, conspiracy, money




6 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000
Congressional Activities and OIG Outreach
                                               Testimony
                                               The Inspector General testified before the House Permanent Select Com-
                                               mittee on Intelligence on May 4, and the House Committee on International
                                               Relations on May 11, on OIG oversight and the findings and recommenda-
                                               tions contained in the OIG report Protecting Classified Documents at
                                               Main State Headquarters (SIO/A-99-46), and the Department’s response
                                               to recent security lapses.
                                                   On May 17, the Inspector General testified before the House Com-
                                               mittee on International Relations on OIG oversight and report findings and
                                               recommendations addressed in the OIG report Review of FY 1999 Emer-
                                               gency Supplemental Appropriations (00-OIG-001), the Department’s
                                               Response to the Overseas Presence Advisory Panel Report, and other
                                               management initiatives undertaken by the Bureau of Diplomatic Security
                                               to enhance domestic and overseas security programs.
                                                   On July 19, the Inspector General testified before the Subcommittee
                                               on National Security, Veterans Affairs and International Relations of the
                                               House Committee on Government Reform. The testimony provided the
                                               committee with an update of the Inspector General’s 1999 testimony on
                                               major management challenges facing the Department of State and imple-
                                               mentation of the Government Performance and Results Act of 1993
                                               (Results Act). Significant management challenges addressed included
                                               domestic and overseas security programs; new embassy construction
                                               projects; financial management, including electronic banking and standard-
                                               izing overseas financial management systems; real property management
                                               and maintenance; and grants management.




                                               Congressional Request
                                               In response to a congressional request, OIG reviewed the Department’s
                                               policies regarding political activity by employees. OIG found that the
                                               Department has a long-standing policy of limiting participation in partisan
                                               campaigns by top officials and political appointees in recognition of the bi-
                                               partisan character of foreign policy. OIG also found that the Department
                                               widely distributes information on the Hatch Act and regularly informs em-
                                               ployees of prohibited activities, with additional notices prior to presidential
                                               campaigns.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                               7 .
Comments on Proposed                     OIG Outreach                                   held a digital video conference on
Legislation                                                                             August 1 to identify areas of mutual
                                         Global and Anticorruption Initia-              interest for further discussion be-
OIG provided comments and                tives: On April 6, the Inspector               tween Washington and Buenos
proposed changes on various legis-       General participated in the second             Aires. Topics will include strength-
lation, including:                       of a series of planned Worldnet                ening internal controls, enhancing
                                         broadcasts addressing international            professional standards for the con-
  • S 870, Legislation to amend the
                                         anticorruption efforts, titled “Good           duct of audits and investigations and
Inspector General Act of 1978 (5
                                         Governance and Anti-Corruption                 establishing procedures for public
U.S.C. App.) to increase efficiency
                                         Techniques: The Bureaucracy.”                  disclosure of information to bring
and accountability of Office of
                                         Questions were fielded from public             greater transparency to government
Inspector General;
                                         diplomacy video conference centers             processes.
 • S 1993, Government Information        in Abidjan, Cote d’Ivoire, and Abuja
Security Act of 2000;                    and Lagos, Nigeria, with broadcast-
 • S 2507, Intelligence Authoriza-       ing to European, Near Eastern, and             Evaluating and Auditing Pro-
tion for FY 2001;                        Western Hemisphere posts. Partici-             gram Information and Perfor-
                                         pants’ discussion addressed govern-            mance Data in Government:
  • S 2712, The Reports Consolida-
                                         ment reform initiatives to combat              On September 27, the Inspector
tion Act of 2000;
                                         corruption; oversight and account-             General gave the keynote address
 • S 3030, legislation to provide                                                       at a conference titled Evaluating
for executive agencies to conduct        ability measures to ensure against
                                         waste, fraud, and abuse in govern-             and Auditing Program Information
annual recovery audits and recov-                                                       and Performance Data in Govern-
ery activities;                          ment; transparency in government
                                         through public disclosure of audit             ment. The Inspector General dis-
 • S 3144, legislation to grant statu-                                                  cussed the value of the Results Act,
                                         and investigative report findings;
tory law enforcement authorities to                                                     difficulties in Results Act implemen-
                                         institution of legislation for greater
certain IG offices;                                                                     tation, and ways auditors, agencies,
                                         accountability, internal controls, and
 • HR 4392, Intelligence Authori-        whistleblower protection; law en-              and oversight entities can impact
zation for FY 2001;                      forcement initiatives to fight corrup-         performance.
  • HR 4760 and HR 5024, legis-          tion; and prosecutorial and judicial
lation to create a Federal Chief         proceedings to convict offenders.
Information Officer;
                                              The Director of Congressional
 • HR 3378, Tijuana River Valley         and Media Relations participated in
                                                                                        Results Act Review
Estuary and Beach Sewage Clean-          the third of this series of Worldnet           OIG reported the results of our
up Act of 2000; and                      broadcasts addressing global anti-             work on the Results Act in letters to
 • Draft legislation to provide ap-      corruption initiatives on May 23               the Chairman of the Senate Com-
propriations for Commerce, Justice,      with audience participants in Port-            mittee on Governmental Affairs dat-
State, the Judiciary and related         au-Prince, Haiti; Dar es Salaam,               ed June 1 and July 11, 2000. The
agencies for FY 2001.                    Tanzania; and Yaounde, Cameroon.               Inspector General also testified on
                                             On June 14, Secretary of State             our Results Act work before the
                                         Madeleine Albright and Argentine               House Committee on Government
                                         Foreign Minister Adalberto Rodrigu-            Reform, Subcommittee on National
                                         ez Giavarini signed a Memorandum               Security, Veterans Affairs, and In-
                                         of Agreement for a cooperative ex-             ternational Relations on July 19,
                                         change between the Department of               2000. Overall, we reported that al-
                                         State Office of Inspector General              though the Department’s strategic
                                         and the Anticorruption Office of the
                                         Argentine Republic. To begin the
                                         exchange, the Inspector General



  8 .                                    Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000
planning process had improved, it              use of the MPP process. The public              Emerging Global
still did not fully comply with the            diplomacy strategy is a particular              Information Technology
Results Act. For instance the De-              focus of the mission, and is clearly            Management
partment has not developed overall             outlined in the MPP (ISP/I-00-13).
priorities for its strategic goals, and                                                        Rapid advancements in information
                                                    Some post inspection reports               technology (IT) and heightened in-
consequently has no overall basis
                                               included recommendations to im-                 terconnectivity through use of the
for allocating resources to priorities.
                                               prove MPPs. For instance, OIG                   Internet have revolutionized the
We also reported that the Depart-
                                               recommended that the MPP pro-                   way in which much of the world
ment’s initial Performance Report
                                               cess be strengthened at Embassy                 communicates and conducts busi-
(for FY 1999) provided minimal ex-
                                               Ottawa by bringing the six consuls              ness. In the current technological
planation of unmet goals and did not
                                               general in Canada more actively                 environment, industries and govern-
discuss the methods in place to col-
                                               into the process. OIG also recom-               ments worldwide have been chal-
lect and verify data.
                                               mended including a missionwide re-              lenged to adopt broader IT
     In our letters and in our testimo-        porting plan to enhance reporting on            perspectives and no longer manage
ny, we stated that OIG’s work has              Canadian developments (ISP/I-00-                technology strictly in the context of
also highlighted the need for im-              21). Some posts continue to report              their individual organizations and
proved performance information in              problems with feedback from head-               operations. The recent year 2000
the Department’s bureau-level                  quarters on their MPPs. For in-                 (Y2K) technology problem and sub-
plans. Additionally, our ongoing audit         stance, Embassy Bogota reported                 sequent global efforts to address it
of mission-level plans uncovered               that the response from Washington               exemplified this challenge. Like no
several weaknesses in the process              to its draft submission showed a dis-           other issue before, Y2K illustrated
for developing plans at the Depart-            appointing lack of coordination.                the need for international IT coop-
ment’s overseas posts. For exam-               Comments were disjointed, and at                eration to ensure that, while the
ple, mission performance plans                 times conflicting or demonstrating              world continues to reap the efficien-
(MPPs) have not provided the De-               unawareness of basic facts (ISP/I-              cies and economic benefits of sys-
partment with the ability to gauge             00-22).                                         tems innovations, we also
progress against a mission’s goals                                                             effectively manage the risks and
                                                   OIG has also begun to build a
because of weak performance                                                                    vulnerabilities that increased auto-
                                               Results Act component into our re-
goals and indicators.                                                                          mation brings. To face the common
                                               views of the BBG. For example,
     In addition to our audit of the           OIG’s review of the BBG transmis-               IT threat, organizations and coun-
MPP process, a review of the con-              sion delivery system found that per-            tries worldwide successfully
tent and use of the MPP continues              formance measures for the system                worked together, sharing informa-
to be an integral part of every post           were not linked to the way operat-              tion and managing in ways unheard
inspection. During this reporting pe-          ing managers measure perfor-                    of before to avert potential wide-
riod OIG’s Office of Inspections               mance. OIG recommended that the                 spread disasters and disruptions.
evaluated post experiences with                BBG Chairman ensure that perfor-                We have much to learn from their
MPPs at 12 missions, generally                 mance measures are used by the                  efforts, not only to help improve
finding that the MPPs were useful              managers working within the seven               day-to-day management operations
in focusing attention on missionwide           components of the transmission de-              but, more importantly, to address
strategic goals. With few excep-               livery system. (00-IB-033)                      other emerging global issues as we
tions, the process of developing the                                                           move forward with managing infor-
                                                   OIG will continue to build a Re-
MPPs was inclusive—it reflected                                                                mation and technology in the new
                                               sults Act component into many of
good interagency coordination, and                                                             millennium.
                                               our audits and inspections.
incorporated input from all embassy                                                               Over the past 2 years, OIG has
sections and mission agencies. Em-                                                             been an effective partner with the
bassy Santiago and its public affairs                                                          Department in meeting the manage-
section made exceptionally good                                                                ment challenges created by the




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                                    9 .
Y2K technology problem. Following              Recognize leadership and                      Coordinate monitoring, re-
the successful (and relatively un-        commitment as keys to success:                 porting, and analysis activities:
eventful) Y2K transition, OIG be-         This includes understanding the                The Y2K exercise has demonstrat-
gan a retrospective study to              U.S. leadership responsibility,                ed the need for global project man-
determine what best practices and/        optimizing the contribution of key             agers to provide clear guidance,
or lessons learned can be garnered        individuals in rallying worldwide co-          reduce duplicative data collection
from Y2K. Our objective has been          operation, and ensuring involvement            activities, eliminate redundant and
to develop guidance that can be           by senior managers to provide the              burdensome reporting requirements,
used to help address other emerging       resources, focus, and effort needed            synthesize data analysis, and coordi-
global information technology man-        for successful global IT project               nate status monitoring and commu-
agement issues, such as computer          management.                                    nications activities. Y2K has also
security, critical infrastructure pro-                                                   emphasized the proactive role that
                                               Appreciate the value of
tection, Internet governance, and                                                        audit organizations can play in prob-
                                          coordination, cooperation, and
the digital divide (i.e., the technolo-                                                  lem resolution.
                                          collaboration: This involves pro-
gy haves vs. the have-nots).
                                          moting shared responsibility for                    Build public awareness and
     OIG’s study of Y2K best prac-        tackling common IT issues at the               confidence: Managing fear,
tices and lessons learned has en-         global, regional, and national levels.         launching public awareness cam-
tailed extensive data collection and      It also includes recognizing the ben-          paigns, and instituting emergency
dozens of meetings with senior ex-        efits and necessity of government/             safeguards are critical aspects of
ecutives, project managers, and in-       industry partnerships and legal/regu-          gaining individual support and coop-
formation technology professionals        latory support in addressing world-            eration in overcoming a global IT
at a variety of public and private        wide IT challenges.                            threat.
organizations both domestically and
                                              Exploit opportunities for                       Consider cultural differences:
overseas. As a result of our study,
                                          management improvements:                       Y2K has illustrated the need for the
we identified the following success-
                                          Side benefits of the Y2K exercise              United States and other industrial-
ful information technology manage-
                                          include greater recognition of the             ized nations to look beyond Western
ment practices, approaches, and
                                          importance of IT to mission accom-             perspectives and recognize the dif-
lessons learned that can be consid-
                                          plishment, enhanced business pro-              ferent needs, approaches, and
ered, adapted, and applied as appro-
                                          cesses, improved technology asset              views of other nations and cultures
priate to address other global IT
                                          management, increased contingency              in global IT project management.
issues.
                                          and emergency preparedness, intro-
                                                                                             This information will be dis-
                                          duction of innovative tools and tech-
                                                                                         cussed in our final report, along
                                          niques, and recognition of the
                                                                                         with actual examples and case
                                          importance of timely management
                                                                                         study illustrations of each practice.
                                          action.
                                                                                         For quality assurance purposes, we
                                                                                         will obtain comments on an expo-
                                                                                         sure draft of our report from all
                                                                                         organizations that participated in
                                                                                         our review. The exposure draft is
                                                                                         scheduled for release by the end of
                                                                                         calendar year 2000.




 10 .                                     Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000
                      U.S. Department of State


Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    15

Inspections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       23

Security and Intelligence Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   29

Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      30

Appendix 1: Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  36

Appendix 2: Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                37

Appendix 3: Savings and More Effective Use of Resources
      Table 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               39
      Table 2: Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    40

Appendix 4: Resolution of Reports and Recommendations
      Previously Reported Significant Audit Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                   41
      Audit Reports Pending Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                               42




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                                                                             13 .
Audits
                                                     CONSULAR AND INTERNATIONAL PROGRAMS



                                               INL-Administered                                headquarters, INL Aviation Division,
                                               Programs in Colombia                            and NAS Bogota, OIG found no
                                               (00-CI-021)                                     basis to recommend a restructuring
                                                                                               of the chain of command.
                                               In March 1999, the Chairmen of the
                                               House Committees on International                   The increased American con-
                                               Relations and Government Reform                 tractor presence in the eradication
                                               requested that OIG review INL                   program resulted in more drug
                                               counternarcotics efforts in Colom-              crops being sprayed in Colombia.
                                                                                               Despite spending over $100 million
                                               bia. The request tasked the Office
                                                                                               on the increased eradication efforts
                                               of Inspector General with answer-
                                                                                               during FY 1997-99, the Central
                                               ing 21 specific questions related to
                                                                                               Intelligence Agency and the De-
                                               INL’s counternarcotics programs in
                                                                                               partment disagree about the effec-
                                               Colombia. The Committees’ ques-
                                                                                               tiveness of the program. Although
                                               tions centered on various areas of
                                                                                               the data indicate that the spray
                                               the Department’s counternarcotics
                                                                                               program has had the effect of mov-
                                               efforts in Colombia. These included
                                                                                               ing cultivation from one region to
                                               the experience and training of Nar-
                                                                                               another, it is uncertain whether the
                                               cotics Affairs Section (NAS) offic-
                                                                                               current program has decreased the
                                               ers, the chain of command between
                                                                                               supply of drugs from Colombia.
                                               INL headquarters and NAS Bogota,
                                                                                               Furthermore, the Department’s
                                               the costs and benefits of using
                                                                                               efforts have had little measurable
                                                               American contractors
                                                                                               impact on the availability of drugs in
                                                               in the eradication pro-
                                                               gram, and the config-           the United States.
                                                            uration of the B-212 and                OIG also found that NAS
                                                   UH-II helicopters transferred to            Bogota and INL should have been
                                                       the Colombian National                  more proactive in helping the Co-
                                                         . Police.                             lombian National Police identify de-
                                                                   OIG found that              sirable modifications to the standard
                                                                 INL is doing an ade-          UH-II helicopter configuration. Bet-
                                                                 quate job of recruit-         ter communication among NAS
                                                                 ing qualified NAS             Bogota, INL Aviation Division, and
                                                                 officers for Bogota.          INL headquarters may have re-
                                                                 Although we found             duced some of the problems associ-
One of the UH-II helicopters that the Bureau of Inter-
national Narcotics and Law Enforcement (INL) provided            examples where                ated with the transfer of these
to the Columbian National Police.                                communication was             helicopters.
                                                                 lacking between INL


Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                                    15 .
The Exchange Visitor                     that the Bureau of Educational and             Embassy Bogota’s
Program Needs Improved                   Cultural Affairs devote the neces-             Counternarcotics Program:
Management and                           sary resources to establish a com-             Legajos Account Adminis-
Oversight (00-CI-028)                    pliance function in the Office of              tration, Fondo Rotatorio
                                         Exchange Visitor Program Ser-                  Account Administration,
OIG conducted a review of the            vices. Its responsibilities should             and Aviation Fuel
Department of State’s Exchange           include: visiting Trainee sponsors,            Accountability (00-CI-029,
Visitor Program (EVP), which facil-      interviewing responsible officers,             -030, and -031)
itates educational and cultural ex-      conducting file reviews, interview-
changes between U.S. citizens and        ing third parties and exchange par-            At the request of INL and the
foreign nationals. The objective of      ticipants, and performing on-site              Chairman of the Senate Caucus on
the review was to evaluate whether       investigation of program misuse and            International Narcotics Control,
the Exchange Visitor Program is          abuse as necessary. As part of its             OIG reviewed the internal controls
effectively administered and moni-       responsibilities, the compliance unit          over the Department’s counternar-
tored. This review concentrated on       should ensure that all required                cotics efforts in Colombia. The re-
the Trainee category, which is one       agreements are in place between                view focused on three specific
of the largest categories in the Ex-     sponsors and the third parties, and            areas: (1) the Colombian National
change Visitor Program with about        that sponsors are effectively moni-            Police (CNP) administered procure-
30,000 participants per year.            toring third parties.                          ments of local goods and services,
     OIG found that the Office of                                                       called the Legajos account; (2) the
                                              Also, a key intent of the legis-          CNP administered contract for civil-
Exchange Visitor Program Services        lation establishing the Exchange
is unable to effectively administer                                                     ian Colombian contractor pilots and
                                         Visitor Program was to ensure that             mechanics who support CNP coun-
and monitor the Exchange Visitor         reciprocity existed so that Ameri-
Program primarily because of inad-                                                      ternarcotics efforts in Colombia,
                                         cans participate in similar experi-            called the Fondo Rotatorio; and (3)
equate resources. EVP’s lax moni-        ences abroad. Our review found
toring has created an atmosphere in                                                     aviation fuel provided to CNP’s
                                         that reciprocity is being accom-               counternarcotics programs. The pri-
which program regulations can easi-      plished to only a small degree. OIG
ly be ignored or abused. At the lo-                                                     mary objective of these reviews
                                         recommended that EVP keep sta-                 was to determine if the internal con-
cations visited, OIG encountered         tistics on the level of reciprocity
widespread violations of program                                                        trols were adequate to prevent
                                         initiated as a result of the Exchange          waste, fraud, and mismanagement.
regulations by program sponsors in       Visitor Program and require
the Trainee category. At one loca-                                                      OIG found internal control weak-
                                         sponsors to include reciprocal pro-            nesses in all three accounts.
tion we visited, EVP concluded that      grams as a part of their program
the violations by the sponsor justi-     designation.                                        In the review of the Legajos
fied initiating actions to revoke the                                                   account, OIG found that, generally,
sponsor’s designation. During our                                                       Legajos purchases tested were rea-
fieldwork, we also visited five third-                                                  sonable and complied with estab-
party program sponsors. At two of                                                       lished NAS and CNP policies and
the five, we found that they were                                                       procedures. However, controls over
using exchange visitors to fill regu-                                                   the Legajos account needed
lar staff positions, a clear violation                                                  strengthening. For example, NAS’s
of program regulations in the Train-                                                    voucher examination process needs
ee category. OIG recommended                                                            to be more substantive and analyti-
                                                                                        cal, and records management needs
                                                                                        to be improved. Also, NAS Bogota
                                                                                        technical advisors were not per-
                                                                                        forming end-use monitoring reviews




 16 .                                    Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000
on a regular basis. Recommenda-                of how much fuel was purchased                  number of specific mandates to the
tions were made to improve the                 for specific fueling locations. Con-            final total of seven.
management controls over the                   sequently, NAS Bogota cannot be
                                                                                                    Overall, OIG found that IAWG
Legajos account.                               assured that aviation fuel is only be-
                                                                                               has made significant progress in at-
                                               ing used for its intended purpose —
     OIG also found that internal                                                              taining some of its mandates but
                                               to support the counternarcotics pro-
controls over the Fondo Rotatorio                                                              only limited progress in achieving
                                               gram. Our review did not identify
were weak, and NAS Bogota                                                                      others. For example, IAWG devel-
                                               specific evidence of unauthorized
lacked adequate oversight of the                                                               oped an electronic data manage-
                                               use of aviation fuel, but we could
CNP’s contract administration. For                                                             ment system to collect, analyze, and
                                               not dismiss the possibility.
example, NAS Bogota and CNP file                                                               report exchange and training data
management were inadequate, and                                                                provided by concerned U.S. Gov-
neither NAS Bogota nor the CNP                                                                 ernment departments and agencies,
adequately verified whether civilian                                                           and it has taken steps to promote
personnel were meeting the terms                          CONTRACTS                            greater understanding and coopera-
of their contract agreements and                          AND GRANTS                           tion among these departments and
were paid only for services ren-                                                               agencies on common issues and
dered. NAS Bogota has decided to                                                               challenges in conducting these pro-
replace the Fondo Rotatorio with a                                                             grams. However, IAWG has not yet
commercial employment agency.                  Status of Interagency                           identified any programmatic dupli-
We recommended that NAS Bogo-                  Working Group on U.S.                           cation or overlap despite efforts to
ta, through its oversight of the new           Government-Sponsored                            do so. It also has made only minimal
contract, ensure that effective inter-         International Exchanges                         progress toward developing a coor-
nal control practices and procedures           and Training Programs                           dinated and cost-effective strategy
are implemented.                               (00-CG-012)                                     for all U.S. Government-sponsored
                                                                                               international exchanges and training
    In reviewing the controls over             OIG conducted a survey of the In-               programs, which must include an
aviation fuel, OIG identified several          teragency Working Group (IAWG)                  action plan with the objective of
internal control weaknesses and,               on U.S. Government-sponsored in-                achieving a minimum of 10 percent
based on our calculations of fuel              ternational exchanges and training              cost savings through greater effi-
purchased and consumed, we were                programs to assess IAWG’s                       ciency, the consolidation of pro-
unable to account for approximately            progress in achieving its charge of             grams, or the elimination of
469,000 gallons of fuel or 17 per-             recommending measures for im-                   duplication. In explaining its limited
cent of total fuel purchased. The              proving the coordination, efficiency,           progress in some areas, IAWG cit-
most significant problem we found              and effectiveness of international              ed several impediments that hamper
was that the NAS at Embassy                    exchanges and training programs                 efforts to fulfill some of its man-
Bogota had not established an ade-             via seven specific mandates. On                 dates, and these barriers to suc-
quate process to monitor and ac-               July 15, 1997, Executive Order                  cessful implementation are
count for aviation fuel. For example,          13055, Coordination of U.S. Gov-                addressed in this report. OIG has
no one in NAS Bogota is currently              ernment International Exchanges                 long recognized the importance and
responsible for oversight of aviation          and Training Programs, established              cost savings potential of IAWG’s
fuel. In addition, NAS Bogota nei-             IAWG and provided its initial man-              function and will continue to monitor
ther reviews the CNP’s monthly                 dates. The Omnibus Consolidated                 the working group’s progress in
fuel reports nor maintains records             and Emergency Supplemental Ap-                  achieving its mandates.
                                               propriations Act, 1999, (Public Law
                                               105-277, section 101(b)), provided
                                               the legal authority for IAWG and
                                               made some changes to the Execu-
                                               tive Order, including increasing the




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                                    17 .
Review of Grant IA-PSLJ-                  its financial management of Federal            Review of Awards to Town
G7190287 Awarded to the                   grants. OIG found that transactions            Affiliation Association of
Foundation for Inter-                     were not always properly recorded              the United States, Inc.,
national Arts and Educa-                  in its accounting system and duties            for Activities in the New
tion for International                    were not adequately separated be-              Independent States
Exchanges and Training in                 cause of limited staffing. In addition,        (00-CG-019)
the New Independent                       OIG found one instance of noncom-
States (00-CG-016)                        pliance with applicable regulations.           As part of an overall effort to re-
                                          Specifically, the Foundation did not           view Freedom Support Act assis-
OIG reviewed the Community Con-           establish a rational methodology for           tance to the New Independent
nections grant, Number IA-PSLJ-           allocating overhead costs between              States, the OIG examined seven
G7190287, at the Foundation for           Foundation and for-profit activities.          grants totaling about $3 million
International Arts and Education          To ensure that Federal funds are               awarded by USIA and the Depart-
(the Foundation), as part of its con-     properly accounted for and spent               ment of State to Town Affiliation
tinuing responsibility to audit Free-     for the intended purpose, OIG rec-             Association of the United States,
dom Support Act assistance to the         ommended that the Bureau of Edu-               Inc. (the Association). OIG re-
New Independent States (NIS).             cational and Cultural Affairs require          viewed costs claimed and incurred
Since 1997, the United States Infor-      the Foundation to strengthen their             for FY 1996 through November 30,
mation Agency1 has provided Free-         controls to ensure accurate ac-                1999. The primary purpose was to
dom Support Act funds to the              counting results and compliance                determine if the Association (1) ad-
Foundation to organize and imple-         with regulations.                              equately accounted for Federal
ment community-based, profes-                                                            funds, (2) complied with applicable
sional training programs for                   The Foundation did not have               Federal laws and regulations related
entrepreneurs, legal professionals,       written procedures for evaluating its          to the terms and conditions of the
and government officials from the         Community Connections Program;                 agreement, and (3) had procedures
New Independent State of Georgia.         however, its interim progress re-              for evaluating its programs for the
OIG reviewed the Foundation’s             ports did facilitate evaluation. Spe-          New Independent States. OIG
transactions for FYs 1997-99.             cifically, the reports highlighted             found:
The objectives were to determine          program accomplishments with
                                          goals and objectives as required by              • that the Association did not
whether the Foundation (1) ade-                                                          always adequately account for Fed-
quately accounted for Federal             regulations and grant agreements,
                                          which were to provide professional             eral funds. As a result, OIG ques-
funds, (2) complied with applicable                                                      tioned costs totaling $908,812. Of
regulations and provisions in the         experience and exposure to Ameri-
                                          can life for 10 Georgian partici-              that amount, $804,318 was clas-
grant agreement, and (3) had proce-                                                      sified as unsupported because of
dures in place to evaluate the suc-       pants. In addition, the reports also
                                          explained the assignment of partici-           a lack of documentation, and
cess of its NIS program.                                                                 $104,494 was unallowable under
                                          pants to American families and
    Generally, the Foundation ade-        businesses; described seminar top-             terms and conditions of the grant.
quately accounted for Federal             ics and places visited; and analyzed            • poor financial management and
funds; however, it needs to improve       problems and potential solutions.              internal control weaknesses includ-
______________
                                          Because the Community Connec-                  ing inaccuracies and inconsistencies
1
                                          tions Program had quantifiable goals           with financial data, cash advances
 On October 1, 1999, the Department and
                                          and objectives, the Foundation’s
the United States Information Agency
(USIA) consolidated. Under the consoli-   program evaluations should assist
dation, USIA grantees report to the       the Department in meeting its re-
Department’s Bureau of Educational        quirements under the Results Act.
and Cultural Affairs.




    18 .                                  Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000
in excess of needs, inadequate and                  OIG recommended that the As-               FY 1996-98 Indirect Cost
outdated written accounting proce-             sociation reimburse the Department              Rates and Claimed Costs
dures, and a lack of separation of             for unallowable costs and provide               for Selected Grants
duties.                                        additional documentation for the un-            Awarded to the American
 • noncompliance with applicable               supported costs. Because the above              Councils for International
regulations and agreements, such as            findings indicate serious financial             Education for Activities in
untimely or incomplete reporting in-           weaknesses, OIG recommended                     the New Independent
cluding the submission of indirect             that the Department grant officers              States (00-CG-032)
cost rate proposal packages, over-             also place the organization on a cost
estimating labor requirements, inad-           reimbursable basis for current                  As part of an overall effort to re-
equate monitoring of subrecipients,            grants and restrict new awards to               view Freedom Support Act assis-
and not meeting cost-share provi-              the organization until the Associa-             tance to the NIS, OIG engaged
sions.                                         tion fully implements actions for as-           certified public accountants to per-
                                               suming financial capability.                    form agreed-upon procedures with
 • that, although the Association                                                              respect to claimed costs by the
did not have written procedures for                                                            American Councils for International
evaluating program results, it did                                                             Education, formerly the American
conduct several independent evalu-                                                             Council of Teachers of Russian. We
ations of specific NIS programs                Termination Claim                               reviewed the indirect cost rates for
during the audit.                              Submitted by Farinha,                           FY 1996-98 and costs incurred and/
     In addition, OIG identified other
                                               Inc., dba Paragon                               or claimed for four grants totaling
matters needing clarification related
                                               Construction Under                              about $10.7 million awarded by the
to the grantee’s use of two different          Contract S-FBOAD-97-                            USIA to ACIE. Our primary pur-
names and the financial capability             C-0019 (00-CG-026)                              pose was to determine if the indi-
of the organization. Although Sister           The Department awarded Contract                 rect and direct costs incurred and
Cities International (SCI) is not the          S-FBOAD-97-C-0019 to Farinha,                   claimed were allowable under the
grantee’s legal name, it is used in-           Inc., dba Paragon Construction on               grant agreements, their terms and
terchangeably with the Association,            October 8, 1997, in the amount of               conditions, and applicable Federal
which has caused some confusion.               $2,250,000 and provided for the ren-            laws and regulations. We found:
In August 1997, the U.S. Agency                ovation of the existing heating, ven-            • missing or inadequate documen-
for International Development                  tilating, and air conditioning system           tation to support some direct and
(USAID) determined that SCI was                and replacement of windows at the               indirect charges. In addition, we
not financially capable of continuing          Embassy in Rangoon, Burma. Sub-                 also identified items that were unal-
performance on Government                      sequent modifications increased the             lowable under the grant terms and
awards. As of March 2000, USAID                contract price to $2,575,937. The               conditions. As a result, we ques-
had not reinstated the Association             Department terminated the contract              tioned costs totaling about $1.2 mil-
to USAID’s Private and Voluntary               for the convenience of the govern-              lion. Of that amount, about $94,000
Organizations registry. As a result,           ment on April 1, 1999. On Novem-                related to direct grant charges and
the grantee known as SCI is not                ber 12, Paragon submitted its                   $1.1 million related to FY 1996-98
eligible for most forms of foreign             termination settlement proposal in              fringe benefits and indirect charges.
assistance from USAID.                         the gross amount of $2,617,244.                 Because the overhead and fringe
                                               The audit questioned a total of                 benefit rates apply to all Federal
                                               $732,168. OIG recommended that                  awards, the savings to the U.S.
                                               the Office of Foreign Building                  Government will be much higher.
                                               Operations resolve the questioned               However, due to our limited scope,
                                               amounts with the contractor.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                                   19 .
we cannot project the cost savings       Foreign Service Retire-                        financial statements were free of
to the entire universe.                  ment and Disability Fund’s                     material misstatements, to deter-
 • noncompliance with applicable         Financial Statements for                       mine whether the Department had
regulations and agreements, such as      FY 1999 (00-FM-017)                            an internal control structure that
                                                                                        provided reasonable assurance of
failure to meet cost share provisions    OIG audited the Foreign Service                achieving internal control objectives,
and submission of indirect cost pro-     Retirement and Disability Fund’s               and to determine whether the De-
posals.                                  (FSRDF) Financial Statements for               partment complied with applicable
     OIG recommended that the Bu-        FY 1999 in order to obtain reason-             laws and regulations.
reau of Educational and Cultural         able assurance and express an opin-
                                         ion on whether the financial                        OIG issued an unqualified opin-
Affairs grant officers require ACIE
                                         statements were free of material               ion on the Department’s 1999 and
to reimburse the Department of
                                         misstatement, to determine whether             1998 Principal Financial Statements,
State for unallowable costs and pro-
                                         FSRDF had an internal control                  which means the financial state-
vide additional documentation for
                                         structure that provides reasonable             ments were free of material mis-
the unsupported costs. OIG also
                                         assurance of achieving internal con-           statements. Although an unqualified
recommended that the grants offic-
                                         trol objectives, and to determine              opinion was issued for the 1999 and
er finalize the fringe benefit and in-
                                         whether FSRDF complied with ap-                1998 Principal Financial Statements,
direct cost rates.
                                         plicable laws and regulations. The             the report brought to management’s
                                         FSRDF is a trust fund that provides            attention concerns with security
                                         pensions to retired and disabled               over the domestic mainframe com-
                                                                                        puters and the Paris Accounting and
         FINANCIAL                       members of the Foreign Service.
                                                                                        Disbursing System; the inadequacy
        MANAGEMENT                       For FY 1999, FSRDF reported as-
                                                                                        of internal controls over the man-
                                         sets of $10.3 billion and no actuarial
                                         unfunded liability.                            agement of unliquidated obligations;
                                                                                        and the inadequacy of the Depart-
                                              OIG issued an unqualified opin-           ment’s financial and accounting
Computer Security                        ion on the FSRDF financial state-              system, which is both an internal
Reviews of Paris Account-                ments for FY 1999. The audit did               control weakness and an issue of
ing and Disbursment                      not identify any internal control              noncompliance with several laws
System and Consolidated                  weaknesses or instances of non-                and regulations, including the Bud-
American Payroll Proces-                 compliance with laws and regula-               get and Accounting Act of 1950, the
sing System (00-FM-014)                  tions that were considered                     Federal Managers’ Financial Integ-
                                         necessary for disclosure.                      rity Act, The Chief Financial Offic-
OIG performed an assessment of
                                                                                        ers Act, and the Federal Financial
computer controls over the Paris
                                                                                        Management Improvement Act.
Accounting and Disbursment Sys-
                                                                                        OIG also brought to management’s
tem and the Consolidated American
Payroll Processing System. This
                                         U.S. Department of State                       attention noncompliance with
assessment was part of the annual        1999 and 1998 Principal                        GMRA, which requires agencies to
audit of the Department of State’s       Financial Statements                           prepare audited financial statements
principal financial statements.          (00-FM-022)                                    and submit them to the Office of
                                                                                        Management and Budget by March
Issues relating to computer controls     The Government Management Re-                  1 of each year.
were identified and appropriate          form Act (GMRA) requires OIG to
actions were recommended.                audit the Department’s Principal
                                         Financial Statements in order to ob-
                                         tain reasonable assurance and ex-
                                         press an opinion on whether the




 20 .                                    Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000
International Boundary                         Federal Agencies’                               Tracking and Monitoring
and Water Commission’s                         Centralized Trial-Balance                       Emergency Supplemental
Balance Sheet for FY 1999                      System Agreed-Upon                              Appropriation Funds
(00-FM-023)                                    Procedures and Findings                         (00-FM-025)
                                               (00-FM-024)
OIG audited the International                                                                  During 1999, OIG audited the sys-
Boundary and Water Commission’s                The Department of the Treasury                  tems and processes in place to
(IBWC) Balance Sheet as of Sep-                annually prepares and submits to                track and monitor emergency sup-
tember 30,1999, in order to obtain             the President and the Congress an               plemental appropriation (ESA)
reasonable assurance and express               audited financial statement covering            funds. Following the August 1998,
an opinion on whether the balance              all executive agencies. Each agency             bombings of the U.S. Embassies in
sheet was free of material misstate-           is required to furnish certain finan-           Nairobi, Kenya, and Dar es Salaam,
ment, to determine whether IBWC                cial and operational information to             Tanzania, the Department received
has an internal control structure that         the Department of the Treasury                  a supplemental appropriation of ap-
provides reasonable assurance of               through the Federal Agencies’ Cen-              proximately $1.5 billion to address
achieving internal control objectives,         tralized Trial-Balance System                   its immediate security needs. The
and to determine whether IBWC                  (FACTS). The chief financial offic-             Department received an additional
complied with applicable laws and              er of the agency must compare the               $567.6 million for security enhance-
regulations. The IBWC is charged               information submitted through                   ments in FY 2000 and estimated an
by a series of treaties between the            FACTS with the agency financial                 additional $3 billion is needed to ful-
governments of the United States               statements and explain any differ-              ly fund priority security enhance-
and Mexico with the application,               ences identified.                               ments.
regulation, and exercise of the pro-
                                                    Under OIG’s direction, a cer-                   This audit was conducted in
visions of such agreements for the
                                               tified public accounting firm per-              conjunction with an OIG-wide ef-
solution of water and boundary
                                               formed required procedures solely               fort to review the effectiveness of
problems along the United States
                                               to assist the Department of the                 the Department’s management of
and Mexico boundary. For FY 1999,
                                               Treasury, the General Accounting                the ESA. The objective of this audit
IBWC reported assets of $380 mil-
                                               Office, and the Office of Manage-               was to determine whether the De-
lion.
                                               ment and Budget to evaluate                     partment’s systems and processes
     OIG issued an unqualified opin-           management’s assertion that it                  for tracking and monitoring expendi-
ion on the IBWC Balance Sheet as               compared the Summarized FACTS                   tures of ESA funds were sufficient
of September 30, 1999, which                   Data to the related information in              to ensure that the Department could
means the IBWC’s financial posi-               the agency’s consolidated financial             fully account for funds expended
tion was free of material misstate-            statements as of and for the fiscal             based on transactions recorded in
ments. Although an unqualified                 year ending September 30, 1999.                 its official accounting records and
opinion was issued, the report                 The accounting firm determined                  provide the information needed to
brought to management’s attention              that there were no material differ-             properly manage ESA funds and
internal control weaknesses over               ences between the FACTS data                    programs.
back-up tapes of the network and               and the agency’s financial state-                   Overall, OIG found that the
accounting system, computer secu-              ments.                                          systems and processes in place
rity, and the financial management
                                                                                               were sufficient to ensure that the
system. The audit did not identify
                                                                                               Department can account for and
any instances of noncompliance
                                                                                               properly manage ESA funds, with
with laws and regulations that were
                                                                                               the exception of a significant
considered necessary for disclo-
                                                                                               amount of funds provided to over-
sure.
                                                                                               seas posts. OIG found that informa-
                                                                                               tion on overseas ESA transactions




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                                     21 .
       was not captured in sufficient detail          the domestic mainframe computers
       to meet the Department’s reporting             and the Paris Accounting and Dis-
       and managing needs. OIG also                   bursing System, the inadequacy of
       identified discrepancies in account-           the Department’s financial and ac-
       ing records. In addition, OIG found            counting system, and the inadequa-
       that the flow of ESA management                cy of the Department’s controls
       information at posts could be im-              over unliquidated obligations.
       proved. OIG recommended that the
       Department define its reporting and
       management information needs;
       develop a method of capturing in-                  HUMAN RESOURCES
       formation on overseas ESA
       transactions in the Department’s
       accounting systems; provide over-
       sight to ensure the accuracy of ESA            Overseas Allowances
       data in overseas systems; and de-              (00-HR-020)
       velop and provide to overseas posts
       a standard management information              Overseas allowances are provided
       reporting format.                              to employees as recruiting and re-
                                                      tention incentives and in compen-
                                                      sation for expenses and hardship
                                                      conditions. The Department is
       International Cooperative                      authorized to determine allowances
       Administrative Support                         for all U.S. civilian employees over-
                                                      seas. OIG reviewed the Depart-
       Services Program’s 1999
                                                      ment of State’s management of
       and 1998 Financial
                                                      overseas allowances in order to
       Statements (00-FM-034)
                                                      determine if the process is adminis-
       OIG audited the ICASS Program’s                tered in compliance with applicable
       1999 and 1998 financial statements             rules, regulations, and guidance.
       in order to: obtain reasonable assur-               OIG found that, overall, the
       ance and express an opinion on                 allowance setting process is well
       whether the financial statements               managed. However, OIG found dis-
       were free of material misstatement,            crepancies that were brought to the
       determine whether ICASS had an                 attention of the Office of Allowanc-
       internal control structure that pro-           es. OIG recommended that the Of-
       vided reasonable assurance of                  fice of Allowances modify the Hotel
       achieving internal control objectives,         and Restaurant Report, monitor the
       and determine whether ICASS                    timeliness of posts’ submissions,
       complied with applicable laws and              establish procedures for improved
       regulations.                                   post reporting on hotel usage, and
           OIG issued an unqualified opin-            strengthen their analysis proce-
       ion on the financial statements, indi-         dures. The Office of Allowances
       cating that they were free of                  has taken action to comply with, or
       material misstatements. Although an            agreed to address, all four OIG
       unqualified opinion was issued, the            recommendations.
       report brought to management’s at-
       tention concerns with security over



22 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000
Inspections
                                               The Office of Inspections conducted post inspections at Embassies Man-
                                               agua, Nicaragua; San Salvador, El Salvador; Buenos Aires, Argentina; San-
                                               tiago, Chile; Ottawa, Canada; Gaborone, Botswana; Addis Ababa, Ethiopia;
                                               Vienna, Austria and consular Agency Salzburg; the U.S. Mission to the Or-
                                               ganization for Security and Cooperation in Europe (OSCE); the U.S. Mis-
                                               sion to the United Nations Organization in Vienna, Austria (UNVIE); and
                                               the Regional Program Office in Vienna Austria.




                                               Embassy Managua,                                Embassy San Salvador, El
                                               Nicaragua (ISP/I-00-10)                         Salvador (ISP/I-00-11)
                                               Now a partner rather than a threat,             U.S. programs that strengthen de-
                                               Nicaragua cooperates with the                   mocracy, promote economic reform,
                                               United States in areas of mutual                and alleviate rural poverty have
                                               concern, such as blocking narcotics             been important in the significant
                                               trafficking. Through programs                   progress El Salvador has made
                                               aimed at consolidating democracy                since the end of its civil war 8 years
                                               and strengthening national institu-             ago. Embassy San Salvador’s man-
                                               tions, Embassy Managua is effec-                agement of interagency participa-
                                               tively engaged in developing                    tion in mission programs, especially
                                               possibilities for further cooperation.          in law enforcement, is a model for
                                               U.S. agencies are well integrated in            embassies elsewhere. U.S. pro-
                                               this effort.                                    grams aimed at improving the rule
                                                                                               of the law have scored some im-
                                                    For nearly 30 years the Embas-
                                                                                               pressive results.
                                               sy has been located in an inade-
                                               quate building of temporary                         One of six Salvadorans lives in
                                               construction. A new chancery is ur-             the United States. The pressure of
                                               gently needed. There are several                many others to follow puts enor-
                                               administrative shortcomings, includ-            mous strain on the understaffed
                                               ing the need for a more proactive               consular section. More personnel
                                               ICASS council and updated com-                  are urgently needed. U.S. programs
                                               puter systems. Management con-                  intended to curb illegal immigration
                                               trols in some areas, including the              —a principal U.S. interest—have
                                               general services office, are weak               so far not overcome the main incen-
                                               and need to be improved.                        tives to leave—a very high crime
                                                                                               rate, poverty, and a strong U.S.
                                                                                               economy.
                                                                                                   All mission elements except
                                                                                               the Peace Corps are located on the




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                                    23 .
       secure chancery compound. The                  the mission’s performance plan and
       management of administrative and               is integral to post activities.
       support functions at the Embassy is
                                                           Fraudulent use of the visa-free
       generally strong.
                                                      Argentine passport by third country
                                                      nationals and alien smugglers to ille-
                                                      gally migrate to the United States
                                                      may have an impact on U.S. border
       Embassy Buenos Aires,                          security. The Embassy and the
       Argentina (ISP/I-00-12)                        Department need to better combine
                                                      efforts to help the Argentine Gov-
       With a 3-year gap in the ambassa-              ernment strengthen its immigration
       dor’s position in Buenos Aires, the            system. Argentina’s inclusion in the
       mission is ably led by the chargé,             visa waiver program has significant-
       who has done an outstanding job in             ly lessened the Embassy’s visa
       managing the bilateral relationship.           workload and led to downsizing of
       The lack of an ambassador has                  staff. Additional resource savings
       been more an embarrassment than                can be achieved by further imple-
       a detriment to U.S.–Argentine rela-            mentation of the Bureau of Con-
       tions. There is excellent access at            sular Affairs’ best practice
       the very highest levels of the new             procedures.
       Argentine government, inaugurated
       in December 1999, as there was                     The post’s attention to security
       with the old. The embassy team has             issues is excellent, and it has initiat-
       fostered relationships of mutual               ed several positive steps while
       trust and openness, ensuring that              awaiting Department decisions.
       the new government remains com-                Staffing gaps in the administrative
       mitted to continuing Argentina’s role          section have affected diplomatic
       as the United States’ best friend in           readiness. Full staffing, expected
       the region. A series of acting deputy          by summer 2000, will permit focus
       chiefs of mission, all of whom be-             on real property issues, including
       lieved their tenure would be brief,            chancery space utilization and up-
       made for less attention to internal            keep of the recently renovated
       management of the mission than                 ambassador’s residence.
       necessary.
            Reporting and analysis are of
       high quality, and the mission’s “eco-
       nomic cluster,” composed of the                Embassy Santiago, Chile
       economic section, Foreign Commer-              (ISP/I-00-13)
       cial Service (FCS), and Foreign Ag-
                                                      Embassy Santiago is a model em-
       ricultural Service (FAS), cooperates
                                                      bassy, demonstrating clearly what
       well at all levels on coverage of is-
                                                      can be accomplished with good
       sues of mutual interest, including
                                                      management, teamwork, adequate
       successful promotion of U.S. ex-
                                                      staff and resources, a secure yet
       ports, sharing of contacts and infor-
                                                      attractive chancery, and functional
       mation, and the frequent and
                                                      facilities and equipment. Front of-
       numerous high-level visits. Public
                                                      fice attention to security is thor-
       diplomacy strategy has been effec-
                                                      ough. Morale and job satisfaction
       tively woven into every aspect of
                                                      are high. The Ambassador and his



24 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000
deputy provide a successful, well-             active, and Voice of America pro-               positions without sufficient resourc-
balanced, coordinated approach to              grams are transmitted countrywide               es to provide for administrative sup-
achieving U.S. goals and objectives,           by a large number of Chilean AM                 port. Additional increases in staffing
with a particular focus on public di-          and FM stations.                                expected in summer 2000 will fur-
plomacy. The mission performance                                                               ther strain administrative support
                                                    Adoption of Bureau of Consular
plan is an effective guide to maxi-                                                            resources.
                                               Affairs best practices by the consu-
mizing bilateral relations. The mis-
                                               lar section has streamlined nonim-                   Several weaknesses in routine
sion makes good use of significant
                                               migrant visa processing. The                    management systems and controls
numbers of high-level visitors to fur-
                                               prospect of increased visa demand               reflect the inexperience of first line
ther U.S. Government objectives.
                                               makes imperative the implementa-                managers, a rapid growth in work-
     The economic/political section            tion of additional consular best prac-          load, and the higher priority placed
advocates U.S. policies actively and           tices.                                          on meeting policy and program re-
produces a sufficient amount of                                                                sponsibilities. Embassy management
                                                   The administrative staff is
high quality reporting clearly fo-                                                             had accurately identified many of
                                               strongly led, proactive, collegial, co-
cused on the needs of Washington                                                               the problems at the outset of the
                                               hesive, and highly customer-service
policymakers. The FCS and FAS                                                                  inspection, and had already intensi-
                                               oriented. Department support is
cooperate very effectively, under                                                              fied its efforts to resolve them.
                                               needed to resolve a land dispute
the leadership of the Ambassador,                                                              More needs to be done.
                                               with the Chilean Government, as
to expand the Chilean market for
                                               well as on some staffing issues.                    Embassy Gaborone’s chancery
U.S. exports. In 2000, FCS negoti-
                                                                                               compound meets most security
ated a landmark e-commerce
                                                                                               standards. Security awareness was
agreement with Chile and FAS was
                                                                                               high, but additional drills are neces-
involved in resolving the 11-year old
                                               Embassy Gaborone,                               sary to familiarize personnel with
“poisoned grapes” dispute. Strong
                                                                                               emergency procedures.
efforts by the Embassy and the                 Botswana (ISP/I-00-14)
Chilean Government, as proposed                                                                    One of the biggest challenges
                                               The intensification of U.S. interest            facing the post is the allocation of
by Chile in 1994, to negotiate a bi-
                                               in Africa, particularly in southern             space within the chancery. The in-
lateral free trade agreement (FTA)
                                               Africa, has placed heavy demands                crease in personnel requires a re-
with the United States failed to
                                               on this small post. The Ambassador              thinking of space allocation within
stimulate progress. The failure of
                                               is effectively managing his dual role           the mission. Embassy Gaborone
the U.S. executive branch to obtain
                                               as head of the bilateral mission in             needs to develop future staff and
fast track authority to negotiate
                                               Botswana and as the Secretary of                workload requirements to determine
binding free trade agreements with-
                                               State’s Special Representative to               how best to reconfigure office
out congressional amendments,
                                               the Southern African Development                space. Preliminary proposals, in-
combined with the lack of move-
                                               Community.                                      cluding rough cost estimates, should
ment on the FTA effort, has caused
a continuing decline in the U.S.                    The United States is aggres-               be presented to the Department for
share of the Chilean import market.            sively assisting Botswana in ad-                action.
                                               dressing the devastating medical                     The consolidation of public di-
     The public affairs section has
                                               and social challenges presented by              plomacy generally went smoothly,
successfully developed, and contin-
                                               the HIV/AIDS epidemic. The Cen-                 but the section was unable to com-
ues to maintain, a dialogue with key
                                               ters for Disease Control are dou-               plete some routine, but important,
institutions and individuals to create
                                               bling their presence and expanding              administrative tasks because staff
understanding and support for U.S.
                                               programs. All elements of the mis-              resources were occupied with
international affairs goals through a
                                               sion are engaged in this endeavor.              more immediately important mat-
full range of programs. The BBG is
                                                   New, regional initiatives and the           ters. BBG’s transmitting station in
                                               resulting responsibilities have led to
                                               an increase in American direct hire



Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                                     25 .
Selebi-Phikwe (250 miles northwest           Post management supported the              U.S. Mission to the
of Gaborone) is well integrated into     regional security officer’s aggres-            Organization for Security
the embassy community and                sive program of security upgrades              and Cooperation in Europe
appears to be operating well (wide-      and heightened security awareness,             (ISP/I-00-16)
spread flooding prevented OIG’s          which won widespread cooperation
programmed site visit).                  from the embassy community.                    The Mission is effectively engaged
                                                                                        in reshaping the OSCE from a de-
                                              The Department is in the initial          liberative forum into an operational
                                         stages of developing plans for a               organization. U.S. dominance, how-
                                         new office building that would meet            ever, could undermine OSCE’s ef-
Embassy Addis Ababa,                     security standards as well as collo-           fectiveness as an instrument of
Ethiopia (ISP/I-00-15)                   cate the U.S. Agency for Interna-              U.S. policy. Mission interagency
                                         tional Development. Realistically,             cooperation is good, presenting an
During the inspection, Embassy           these plans are a number of years
Addis Ababa was vigorously ad-                                                          integrated diplomatic and military
                                         away from fruition. In the interim,            perspective. While it effectively
dressing a broad range of U.S. in-       the Department should evaluate po-
terests in a region of strategic                                                        represents American interests to the
                                         tential short-term solutions to pro-           OSCE, the Mission’s internal lead-
importance, but was hampered by          vide a more secure environment for
the conflict between Ethiopia and                                                       ership is weak, focusing on policy
                                         the embassy community.                         objectives to the detriment of staff
Eritrea. The U.S. foreign affairs
establishment was giving its full at-         Embassy Addis Ababa was                   and resource management. As
tention to the peaceful resolution of    providing quality consular services            OSCE field missions in the Balkans
the conflict, making it the Embas-       to American citizens and foreign               and other areas dramatically in-
sy’s top priority. Concurrently, the     nationals. However, the workspace              crease, the Mission’s preoccupation
imminent threat of drought and the       of the consular section is inade-              in staffing them with Americans ris-
consequent need for food assis-          quate. As plans are made to relo-              es. This function should not be as-
tance demanded prompt attention.         cate the consular section, the                 signed to the political section.
Under these circumstances, post          Embassy should ensure that consu-              Officers competent to do these
management directed resources ac-        lar office space and waiting areas             tasks should be assigned to the Mis-
cordingly, allocating fewer resourc-     are significantly expanded and con-            sion and management of general
es to certain other policy and           figured to better promote efficiency           field mission staff recruitment
program elements.                        and safety.                                    should be outsourced. The Mission,
                                                                                        like other U.S. entities in Vienna,
     The mission’s financial and per-         Financial management at Em-
                                                                                        works on law enforcement activities
sonnel resources were found to be        bassy Addis Ababa is complicated
                                                                                        that should be better coordinated.
generally adequate. The political        by the Ethiopian Government’s re-
                                                                                        The Joint Administrative Office ef-
uncertainty and the potential for an-    fusal to accept birr (the national
                                                                                        fectively supports all three missions
other evacuation, however, de-           currency) for telephone charges,
                                                                                        in Vienna. For USOSCE, a major
creased the number of potential          utilities, government residential leas-
                                                                                        need is more suitable office space.
bidders for positions at this “hard to   es, vehicle insurance, and air trans-
fill” post. Extended gaps in the gen-    portation (including pouch), and the
eral services section and elsewhere      resulting accumulation of a consid-
in the administrative and consular       erable amount of unusable birr col-
sections were alleviated by the Bu-      lected by the Embassy in consular
reau of African Affairs’ continual       fees. The Embassy needs to con-
support and the assignment of tem-       vince the Ethiopian Government to
porary-duty personnel.                   permit payment of local expenses in
                                         local currency.
    The public diplomacy function
was performing well and consolida-
tion had generally worked smoothly.



 26 .                                    Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000
U.S. Mission to the United                     Embassy Vienna and                              and Embassy undertakings requires
Nations Organization in                        Consular Agency Salzburg                        more effort, especially in informa-
Vienna, Austria (UNVIE)                        (ISP/I-00-18)                                   tion technology applications. The
(ISP/I-00-17)                                                                                  reclassification workload associated
                                               U.S. policies, reacting to rightist             with State-USIA consolidation of-
The Ambassador focuses on nucle-               Austrian Freedom Party participa-               fered the personnel section a huge
ar issues to the virtual exclusion of          tion in the current government, limit           task, which it nonetheless complet-
narcotics and crime control. Overall           U.S. influence in Austria. While the            ed ahead of schedule. The Embassy
Mission leadership needs strength-             Embassy assesses that govern-                   developed a best practice in forming
ening. Policy issues engross most              ment’s performance, the larger                  a team to proactively review admin-
supervisors, leaving them little time          agenda is in abeyance. Senior na-               istrative operations to seek efficien-
for developing subordinates. This              tional employees in some Embassy                cies and improve service quality.
results in internal tension that poten-        sections operate without sufficient             Success to date includes streamlin-
tially may interfere with achieving            American supervision. The Embas-                ing the motor pool and outsourcing
policy goals.                                  sy misgauged popular dissatisfaction            expendable supply operations.
     The Mission strongly represents           with the status quo before the 1999
U.S. nonproliferation interests on a           election and did not foresee the
strengthened nuclear safeguards                Freedom Party’s inclusion in the
regime designed to locate materials            new government. It responded well
                                               to the surge in demand for political            Regional Program
deliberately diverted from peaceful                                                            Office, Vienna, Austria
use. Department policy instructions            reporting following the election. All
                                               three U.S. missions in Vienna work              (ISP/I-00-20)
to the Mission on funding the Inter-
national Atomic Energy Agency are              on a wide variety of law enforce-               The Regional Program Office
inconsistent. Though the Senate re-            ment related activities but they do             (RPO) provides a range of excel-
jected U.S. participation in the               not fully coordinate operations. The            lent services in a timely and valu-
Comprehensive Nuclear Test Ban                 Joint Administrative Office effec-              able way to posts with urgent
Treaty, the United States has strong           tively supports all three missions in           program and administrative needs.
interest in continuing development             Vienna, though a $4 million building            Several management issues should
of verification standards. The Mis-            maintenance backlog clouds the ho-              be addressed by both the RPO and
sion advocates related positions               rizon. Coordination of former USIS              the Bureau for European Affairs
such as establishment of worldwide                                                             (EUR). EUR recently determined
monitoring stations capable of de-                                                             that supervisory authority over RPO
tecting nuclear detonations. Arms                                                              Vienna would reside with its region-
Control and Disarmament Agency                                                                 al support operation in Frankfurt,
consolidation into the State Depart-                                                           Germany, now under the leadership
ment went smoothly.                                                                            of a new EUR deputy executive
     To properly support the Mission,                                                          director. At the time of the inspec-
the new Bureau of Verification and                                                             tion, the new supervisory structure
Compliance and the Bureau of                                                                   was not yet in place, and OIG
Arms Control must closely coordi-                                                              recommended that all long-term
nate clear lines of authority. Joint                                                           resource commitments, such as
Administrative Office functions ef-                                                            adding personnel, be postponed until
fectively support all three missions                                                           the new deputy executive director
in Vienna. Specifically, action to                                                             could review the RPO operation in
fulfill UNVIE’s greatest require-                                                              person and make determinations as
ment—relocating to a site near its                                                             to the full role of Vienna operation
international organization interlocu-                                                          in relation to the services made
tors—is close to resolution.                                                                   available in Frankfurt.
                                                        Embassy Vienna, Austria



Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                                    27 .
       Inspection of Embassy                          ied portfolio, needs to better struc-
       Ottawa, Canada                                 ture its staff responsibilities. Under
       (ISP/I-00-21)                                  the Ambassador’s lead, public out-
                                                      reach and advocacy engage all ma-
       Embassy Ottawa plays an essential              jor mission elements including the
       catalytic coordinating role in assur-          consulates general. The mission
       ing that the diverse strands of the            provides an appropriate level of ad-
       all-pervasive U.S.-Canada bilateral            ministrative support to State De-
       relationship are harmonized with               partment and other agency
       broader U.S. interests and policies.           elements, and the administrative
       Inevitably, areas of contention exist,         section managed well the mission’s
       but are managed within the frame-              move into the new chancery in fall
       work of a broader relationship mu-             1999. However, the general servic-
       tually recognized as of bedrock                es unit is in disarray and needs
       importance, and the mission works              reorganization, and there are man-
       coherently and intelligently, spending         agement control weaknesses that
       as much time with Washington                   require senior level attention. Imple-
       agencies as with Canadian interloc-            mentation of necessary surveillance
       utors. However, effective amalgam-             programs nationwide requires in-
       ation of Canadian affairs into the             creased personnel and funding and
       Bureau of Western Hemisphere                   current contracts need to be com-
       Affairs has not yet been achieved.             peted. The six consulates general
       The mission’s executive leadership             provide a high level of consular ser-
       and policy direction are excellent,            vices and assiduously pursue MPP
       with the MPP providing the Embas-              goals. Greater use of consular best
       sy and its six constituent posts a             practices and more efficient work-
       clear policy framework. But the                load distribution would free resourc-
       Embassy needs to bring the consuls             es to support a missionwide,
       general into the MPP process more              antifraud strategy. OIG supports
       actively and establish a missionwide           the establishment of an American
       reporting plan. Led by the Ambas-              Presence Post in Winnipeg.
       sador and deputy chief of mission,
       interagency relationships are out-                  OIG noted three best practices.
       standing, and a growing and well-              The mission has inaugurated a
       integrated law enforcement                     junior officer conference, the digital
       presence reflects the high priority            videoconferencing capabilities of
       given to terrorism and cross-border            the public affairs section have
       crime. A regional law enforcement              been utilized by other sections to
       hub is taking shape in Vancouver.              hold substantive virtual bilateral ne-
                                                      gotiations and, at the Ambassador’s
            Embassy Ottawa’s economic                 initiative, a missionwide speakers
       section handles the high priority              bureau was set up with funds
       economic and environmental issues              provided for training speaker
       that dominate the mission agenda               participants.
       extremely well. The political sec-
       tion, so as to better manage its var-




28 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000
Security and Intelligence Oversight
                                               During this reporting period, OIG conducted several security oversight
                                               projects, including various security inspections and compliance followup
                                               reports, intelligence oversight reports, and security annexes to OIG inspec-
                                               tions. Although not individually summarized here, these reports are dis-
                                               cussed at length in the classified annex to this semiannual report. The
                                               reports continue to reflect OIG’s heightened concerns with physical and
                                               perimeter security issues at our overseas posts. Most of the individual post
                                               reports identified vulnerabilities exploitable by terrorist or mob violence and
                                               correspondingly included recommendations for appropriate enhancements.
                                               Many of the reports noted concerns over the existing adequacy of physi-
                                               cal setback for the chancery, office annexes, or residential quarters from
                                               areas accessible by the general public. Many of the necessary corrective
                                               actions would require resources beyond those currently available from the
                                               Department.
                                                    Also during this reporting period, reports were issued on overseas
                                               posts’ compliance with the physical security standards and on the evalua-
                                               tions of Embassy Luanda, Angola, and Embassy Kampala, Uganda. Securi-
                                               ty inspections were completed at embassies Algiers, Algeria; Athens,
                                               Greece; Berlin, Germany; Budapest, Hungary; Chisinau, Moldova; Dhaka,
                                               Bangladesh; Ljubljana, Slovenia; Riga, Latvia; Vilnius, Lithuania; and War-
                                               saw, Poland. In addition, reports were issued for an audit of the Depart-
                                               ment’s Counterintelligence Program, a domestic inspection of State Annex
                                               26 in Beltsville, Maryland, an inspection of the use of tones with the Selec-
                                               tone emergency notification system, and a compliance followup review of
                                               Embassy London, United Kingdom, and its constituent posts.




                                               The Department’s Counterintelligence Program
                                               (SIO/A-00-48)
                                               This audit examined the Department’s Counterintelligence Program. The
                                               audit focused on the process at the Department of State and selected other
                                               agencies for screening assignments to overseas posts deemed “critical” for
                                               counterintelligence threat; the Department’s counterintelligence awareness
                                               program; and the Department’s policies for reporting contacts and relation-
                                               ships with foreign nationals.
                                                   A number of recommendations were made to improve procedures for
                                               screening assignments to critical threat posts, counterintelligence aware-
                                               ness briefings, and contact and relationship reporting requirements.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                              29 .
Investigations
Visa Fraud                                OIG opened a joint investigation                    On June 26, 2000, the former
                                          with the Federal Bureau of Investi-            principal was indicted by a federal
As a result of a joint investigation      gation (FBI) in December 1999,                 grand jury in Colorado on felony
with DS, on March 17, 2000, a For-        based upon information provided by             charges of visa fraud and false
eign Service officer and a foreign        the FBI indicating that a former               statements. On September 20, 2000,
national were arrested in Chicago,        school principal in Colorado was               the former school principal pleaded
Illinois, and Miami, Florida, respec-     engaged in a scheme to assist Rus-             guilty to both counts of the indict-
tively, for the sale of U.S. visas at a   sian nationals in fraudulently obtain-         ment. Sentencing is pending.
U.S. embassy. In addition, over $1.8      ing visas for entry into the United            (00-029)
million in cash, gold bars, and other     States.
assets representing the proceeds of                                                                          ——

the visa sales were seized. The ar-           The investigation developed evi-
rests were the result of a lengthy        dence that the individual had been             In April 1998, OIG opened an inves-
joint undercover operation conduct-       involved in this activity for several          tigation based upon information that
ed by agents of both OIG and DS.          years. He used his position as a               officers of a company based in
The officer subsequently resigned         professional educator to create                Northern Virginia were engaged in
from the Foreign Service and has          short-term educational and cultural            a large-scale scheme to defraud the
been incarcerated since his arrest.       programs for Russian teachers and              EB-5 investor visa program. Under
Prosecution of both the officer and       students. He submitted letters to the          this program, U.S. visas may be is-
the foreign national is currently         U.S. Embassy in Moscow in sup-                 sued to foreign nationals who invest
pending.                                  port of applications for tourist visas,        at least $500,000 in a business that
                                          and accompanied the applicants to              creates jobs in a low employment
     The investigation determined         the Embassy for their visa inter-              area of the United States.
that three Foreign Service nationals      views.
(FSNs) employed by the embassy                                                                This investigation was conduct-
were also involved in the visa sale            The former principal acknowl-             ed jointly with INS and the Internal
scheme, and they were subsequent-         edged during an interview with in-             Revenue Service. The investigators
ly terminated from employment.            vestigators that the vast majority of          developed evidence that company
One of the FSNs subsequently trav-        the individuals who had obtained               officers had been involved in sub-
eled to the United States, was ar-        visas in this manner had no intention          mitting numerous fraudulent visa
rested, and is currently incarcerated     of returning to Russia. He acknowl-            applications, as well as other false
awaiting prosecution.                     edged that he had charged fees for             statements to the government, and
                                          this and estimated that he had ob-             that they had taken funds obtained
     As a result of the investigation,    tained fraudulent visas for more               from alien customers, which were
the Department’s Bureau of Consu-         than 70 Russian nationals. There               to be invested, for their own use.
lar Affairs conducted an extensive        was no indication of involvement in            Little, if any, money was invested in
assessment of consular operations         this scheme by any Embassy em-                 U.S. businesses, and few, if any,
at the embassy. (99-068)                  ployee.                                        jobs were created.
                 ——




 30 .                                     Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000
     On August 10, 2000, the two               remained a fugitive at the end of               Passport Fraud
principal officers of the company              this reporting period. (00-045)
                                                                                               In April 2000, OIG opened an inves-
were indicted by a federal grand
                                                                   ——                          tigation based upon information pro-
jury on felony charges of visa fraud,
                                                                                               vided by the Office of the United
conspiracy, money laundering, and
                                               OIG opened a joint investigation in             States Attorney for the Southern
false income tax returns. Resolution
                                               July 1999 with the INS, based upon              District of New York, indicating that
of these charges was pending at the
                                               information that a Polish national in           an individual under indictment for
end of this reporting period.
                                               New Jersey was running a large-                 defrauding investors may have been
(98-079)
                                               scale operation providing fraudulent            involved in passport fraud. On April
                    ——                         visas which were then used to ob-               12, this individual was arrested at
                                               tain social security cards, drivers             Newark, New Jersey, International
OIG initiated an investigation in              licenses, and other identifying docu-           Airport while attempting to leave
February 2000, based upon infor-               ments. On July 13, 2000, a partici-             the United States, in violation of the
mation provided by the INS that a              pant in this operation was arrested             conditions of his bond. He had in his
Jamaican national arrested in Rich-            on felony charges of conspiracy and             possession an altered U.S. passport.
mond, Virginia, on drug distribution           visa fraud. He subsequently agreed              On April 25, he was indicted on a
charges had fraudulently obtained a            to cooperate with investigators. On             felony charge of forgery or false
nonimmigrant U.S. visa in a false              August 16, a second participant was             use of a passport, as well as a felo-
identity. On May 10, a criminal                arrested on the same charges, and               ny charge of fraud relating to the
complaint was issued, along with               also agreed to cooperate. The in-               Investment Advisers Act. The evi-
an arrest warrant, charging this indi-         vestigation was ongoing at the end              dence indicated that he embezzled
vidual with visa fraud. The subject            of this reporting period. (99-065)              as much as $9 million from clients’
                                                                                               accounts. On August 2, he pleaded
                                                                                               guilty to the charge of defrauding
                                                                                               investors. At the end of this report-
                                                                                               ing period, he remained incarcerat-
                    OIG       Pr eliminar y            Inquiries                               ed as he awaited sentencing.
    The OIG Office of Investigations receives allegations and                                  (00-058)
    information from a variety of sources, including the OIG Hotline.
    Not all information reported to OIG warrants the opening of a
    criminal investigation. While some matters reported to OIG
    clearly indicate that a crime has been committed, or that a
                                                                                               Nepotism
    violation of rule, regulation, or Department policy has occurred,
    some matters that are reported are unclear or too vague to                                 An OIG investigation determined
    make an informed decision on how to handle them. In these                                  that a U.S. Embassy had hired the
    instances, OIG conducts a preliminary inquiry to develop more                              spouse of a Foreign Service officer
    factual information.                                                                       to be a temporary employee in
         OIG has established a 45-day time period within which a                               violation of nepotism regulations.
    decision must be made whether to: (1) close the preliminary                                Because of the limited number of
    inquiry, (2) open a criminal investigation, or (3) refer the matter                        American employees at the Embas-
    to the appropriate bureau or to another agency for appropriate                             sy, no position could be found for
    action. The vast majority of preliminary inquiries are resolved                            the spouse in which the officer
    without opening an official investigation.                                                 would not have served as the re-
         The Office of Investigations began the preliminary inquiry                            viewing official on the spouse’s per-
    process in June 1998, in order to more expeditiously process                               formance appraisal. As a result of
    and resolve allegations and complaints. Since then, it has                                 OlG’s investigation, the Embassy
    opened 393 preliminary inquiries. Of the 393 inquiries, 83 have                            terminated the spouse’s employ-
    led to criminal investigations.                                                            ment. (00-052)




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                                    31 .
Reimbursement                             passport examiner was terminated               that he was making arrangements
                                          from employment in August 1999.                to have the maps returned. (00-056)
An OIG investigation determined
that a former Foreign Service offic-           On July 21, 2000, a criminal
er left the Department without re-        complaint was issued, charging the
paying a travel advance received          former employee with theft of pub-
while still employed. On August 7,        lic money. Resolution of these                 False Statements
2000, OIG was notified that the           charges was pending at the end of
                                          this reporting period. (99-059)                OIG opened a joint investigation in
Department’s Bureau of Finance                                                           December 1997 with the Defense
and Management Policy retained                                                           Criminal Investigative Service
$3,547 from the officer’s lump sum                                                       (DCIS) based on information pro-
annual leave payment to cover the                                                        vided by DCIS that a subcontractor,
outstanding amount of the travel          Management Implication                         then working at both government
advance. (00-042)                         Report                                         agencies, had submitted fraudulent
                                                                                         certifications of training in support
                                           An OIG investigation determined               of its submissions to perform elec-
                                           that a diplomatic courier accepted            trical contract work. The company
                                           maps from a Department vendor,
Theft                                      which were displayed in his govern-
                                                                                         improperly performed some electri-
                                                                                         cal service work on the main elec-
OIG opened an investigation in June ment office. The value of the maps                   tric service of a military base
1999 based upon information pro-           exceeded the acceptable gift limit.           located near Washington, D.C.
vided by the Diplomatic Security           As a result of the investigation, the         The investigation disclosed that this
Service indicating that a passport         employee agreed to return the                 company also performed electrical
examiner at the New York Passport maps. OIG also found that accep-                       preventive maintenance work on
Agency had been engaged in the             tance of maps is a common practice            approximately 80 electric plant mo-
theft of passport fees. The investi-       within the diplomatic courier ser-            tors in the main State Department
gation determined that the employee vice. On June 20, 2000, OIG issued                   building. One week after this work
had used several different methods         a Management Implication Report               was performed, one of the motors
to steal application fees over a peri- (MIR) to the Chief of Courier Op-                 shorted out because of a frayed
od of approximately 2 years. It was erations recommending that a notice                  wire. The investigation also dis-
estimated that the total amount of         be issued to all diplomatic couriers          closed that the company worked at
the thefts exceeded $175,000. The          informing them that they should not           the National Foreign Affairs Train-
                                                            accept such maps             ing Center and falsely reported
                                                            and that any maps            that it performed preventive main-
               Types of Cases*                              already accepted             tenance work on electrical compo-
  Passport & Visa Fraud, 46%
                                                            should be returned.          nents that did not exist.
                                                            On July 17, OIG
                                                                                              On March 30, 2000, the compa-
  Employee Misconduct, 16%                                  received a response
                                                                                         ny owner was indicted in the U.S.
                                                            to the MIR stating
                                                                                         District Court for the Eastern Dis-
  Miscellaneous Theft, 19%                                  that the notice had
                                                                                         trict of Virginia, on a felony count of
                                                            been issued. The
                                                                                         submitting a false statement to the
  False Statements & Claims, 7%                             Courier Service also
                                                                                         U.S. Government. On May 26, the
                                                            notified OIG that
                                                                                         owner pleaded guilty. On August 4,
  Contract & Procurement Fraud, 5%                          upon receiving the
                                                                                         the owner was sentenced to super-
                                                            notice, another diplo-
  All Other, 7%                                                                          vised probation for a period of 2
                                                            matic courier indicat-
                                                                                         years, fined $2,500 and ordered to
                                                            ed that he had
0         10        20         30         40          50                                 pay a special assessment of $100.
                                                            received two maps
   (*Reflects combined ongoing investigative activities
                                                                                         (98-025)
                                                            from a vendor and
        for the Department of State and the BBG.)



 32 .                                     Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000
                     Geographic Distribution of Investigations*




                        Western Hemisphere – 11 cases, 13%

                Domestic
                51 cases,
                  60%                                          Near East             South Asia
                                                              5 cases, 6%           0 cases, 0%
                                                                                                              East Asia and
                                                                                                                  Pacific
                                                                     Africa                                   9 cases, 10%
                                                                    5 cases,
                                     Latin                            6%
                                   America
                                   4 cases,
                                     15%



                                                       Boundary representations are
                                                       not necessarily authoritative.

 (*Reflects combined ongoing investigative activities for the Department of State and the BBG.)




                                                                                               False Claims
                           FOLLOWUP ACTIONS                                                    This office previously reported that
                                                                                               an OIG investigation determined
                                                                                               that a Department employee sub-
                                                                                               mitted and received payment for
Embezzlement                                                                                   fraudulent overtime claims in ex-
                                                                                               cess of $29,000.
OIG conducted a joint investigation with another agency’s OIG into allega-
tions that an employee of that agency, on detail to the Department of State,                       During the investigation, the
submitted false reimbursement vouchers during the evacuation of a U.S.                         employee admitted to falsifying the
embassy overseas. On May 29, 1999, the Bureau of Finance and Manage-                           overtime claims and subsequently
ment Policy issued a letter of collection to the employee in the amount of                     resigned from the Department. The
$4,440. On January 18, 2000, the employee pleaded guilty in U.S. District                      former employee agreed to plead
Court to one felony count of theft of U.S. Government property. The em-                        guilty to one felony count of theft of
ployee was sentenced to 12 months of supervised probation, a $1,000 fine,                      government property and agreed to
a $25 special assessment and restitution to the U.S. Government in the                         make restitution of the stolen funds.
amount of $8,580. (See OIG Semiannual Report, April 1, 1999, to Sep-                           The individual was indicted on Feb-
tember 30, 1999, p. 30) (99-052)                                                               ruary 25, 2000, and the court ac-
                                                                                               cepted a guilty plea on March 14.
                                                                                                   On May 24 in U.S. District
                                                                                               Court, the judge sentenced the
                                                                                               former employee to 5 years of pro-



Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                                    33 .
       bation and 6 months of electronic              trict Court indicted the former em-
       home detention; the former employ-             ployee on 24 counts of forgery and
       ee was also ordered to repay                   uttering false documents. The
       $28,632 in restitution and to pay a            former employee pleaded not guilty
       special assessment of $100. (See               to the charges.
       OIG Semiannual Reports, Octo-
                                                           As part of a plea bargain on
       ber 1, 1999, to March 31, 2000,
                                                      May 12, 2000, in the Local District
       p.30-31) (00-005)
                                                      Court, the former employee pleaded
                                                      guilty to 18 counts of forgery and
                                                      admitted to having forged invoices
                                                      and making false claims equivalent
       Procurement Fraud                              to approximately $141,207 from Au-
                                                      gust 1996 to January 1999. On May
       Based upon information received                29, 2000, the former employee was
       from an East Asian post, OIG initi-            sentenced on the first of 18 counts
       ated an investigation in December              to 2 years in jail and was ordered to
       1998 into allegations that an FSN              pay approximately $13,000 to the
       employee had altered procurement               post within 14 days. The judge
       documents so that the post would               reduced the sentence from 4 years
       pay for services that had not been             because of the subject’s guilty plea
       ordered and were not received. An              and lack of criminal record. The
       investigative team traveled to the             judge also sentenced the former
       post in January 1999 and developed             employee to 2 years in jail on each
       evidence that the employee had en-             of the remaining 17 counts, to be
       gaged in a pattern of fraud and                served concurrently with the first
       theft. A local law enforcement                 count.
       agency was apprised of this infor-
       mation and agreed to participate in                The monetary recovery at this
       a joint investigation.                         point is a total of approximately
                                                      $75,700 or about half of the stolen
            OIG previously reported that on           amount. This includes the subject’s
       January 20, 1999, the employee was             unpaid salary, annual leave, retire-
       arrested on criminal charges and a             ment, and the court-ordered pay-
       search warrant was executed on                 ment. The post intends to explore
       the premises of a local vendor. Dur-           further recovery possibilities. (See
       ing an interview with investigators,           OIG Semiannual Report, October
       the employee admitted to having                l, 1998, to March 31, 1999, pp.
       engaged in fraud and was terminat-             28-29 and OIG Semiannual Re-
       ed from employment effective Feb-              port, October 1, 1999, to March
       ruary 5. The post’s audit of records           31, 2000, pp. 34-35.) (99-015)
       pertaining to all procurement expen-
       ditures for the past 3 years devel-
       oped substantial evidence of
       alterations of invoices, as well as
       the creation of false, inflated invoic-        Visa Fraud
       es exceeding $200,000 in fraudulent
                                                      OIG conducted a joint investigation
       payments.
                                                      with the INS and the Social Securi-
            OIG also previously reported              ty Administration’s OIG into a net-
       that on November 14 the Local Dis-             work of individuals involved in visa



34 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000
fraud and alien smuggling. This                The other three individuals, who                not require the professional skills
group, operating in the Czech Re-              were also sentenced during May                  claimed in the petitions filed with
public and in several areas of the             2000, received lesser sentences.                the Government. The immigration
United States, engaged in a conspir-           (See OIG Semiannual Report,                     consultant and others received in-
acy to profit from the employment              October 1, 1999, to March 31,                   come from fees charged to the
of unauthorized alien workers in the           2000, pp. 29-30.) (99-072)                      aliens.
United States. The alien workers,
                                                                   ——                               On February 3, 2000, the immi-
who were from the Czech Republic
                                                                                               gration consultant and an attorney
and other countries in Eastern
                                               OIG opened a joint investigation in             were indicted on felony charges of
Europe, were employed in various
                                               1995 with INS and the Department                visa fraud, alien smuggling, and con-
janitorial positions in retail stores,         of Labor OIG, based upon informa-               spiracy. On August 4, the controller
hotels, and motels in the United               tion that an immigration consultant             of a large health care organization
States.                                        was conspiring with others to de-               pleaded guilty in U.S. District Court
     Recruiters in Eastern Europe              fraud the H1-B visa program. The                to a felony charge of encouraging
helped foreign nationals to obtain             H1-B program was created by                     or inducing aliens to enter and re-
nonimmigrant visitor visas from                Congress to allow workers whose                 side in the United States. On the
United States consulates by mis-               skills are in short supply to work in           same date, the health care organiza-
representing the true nature of the            the United States. The investigation            tion also pleaded guilty to the same
travel, and by providing fraudulent            developed evidence that the immi-               felony charge. Both the individual
documentation in support of visa               gration consultant, working with as-            and the organization agreed to co-
applications. The workers then                 sociates, arranged, through petitions           operate in the investigation.
entered the United States on these             filed by U.S. corporations, to have
                                               numerous foreign nationals certified                On September 22, the immigra-
visas, which do not authorize em-
ployment. Once in the United                   as professionals to be hired in highly          tion consultant pleaded guilty to visa
States, many of these foreign na-              skilled positions. In many instances,           fraud and conspiracy. Sentencing
tionals were provided with fraudu-             after the aliens were admitted to the           remained pending on these pleas at
lent H-1B visas, which do authorize            United States, the original petitioner          the end of this reporting period.
employment. These fraudulent visas             did not employ them. They were                  (See OIG Semiannual Report,
were then used to obtain social                often employed in positions that did            October 1, 1999, to March 31,
security cards.                                                                                2000, p. 30.) (95-099)

     In February 2000, four Czech
nationals who had been living in the
United States entered guilty pleas                                                  HOTLINE
to felony charges in U.S. District
Court in Norfolk, Virginia. In May,
one of these individuals, who
had pleaded guilty to conspir-
acy to launder monetary                            The OIG Hotline, operated by the Office of Investigations, is a prompt,
instruments, was sen-                              effective channel for employees to report incidents of fraud, waste,
tenced to 84 months’                              abuse, and mismanagement to the Inspector General. Below is a sum-
incarceration and was                              mary of Hotline activity for the agencies for which OIG has oversight.
ordered deported upon                                      Total allegations received . . . . . . . . . . . . . . . . . . 178
completion of the sen-
                                                           Held for action within OIG . . . . . . . . . . . . . . . . . 21
tence. The judge also
ordered the forfeiture                                     Referred to other offices for action . . . . . . . . . . 107
to the government of                                       Not substantiated – no action necessary . . . . . . 50
$136,763 in seized assets.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                                    35 .
Appendix 1: Investigative Activities1
       Workload                                                              Total Judicial Actions                            56
       Cases pending 3/31/00                             87                  Criminal
       New cases opened                                  43                  Prosecutive referrals                          18
       Cases closed                                      45
                                                                             Prosecutive declinations                        7
       Cases pending 9/30/00                             85
                                                                             Prosecutive dismissals                          3
                                                                             Acquittals                                      0
       Prelim opened                                     82                  Indictments2                                   12
       Prelim closed                                     74                  Convictions                                     6
       Prelim converted to cases                         15                  Sentencings                                     8
       Preliminary inquiries pending 9/30/00             21                    Time sentenced                       149 months
                                                                               Time suspended                                0
       Total Administrative Actions                     28
                                                                               Time probation                         10 years
       Admonishments                                      0                  Court-ordered fines                        $1,325
       Counseling                                         1                  Court-ordered restitutions               $186,827
       Curtailment                                        0
       Demotions                                          0                  Civil
       Reimbursements                                     7
                                                                             Referrals                                           1
       Reprimands                                         2
                                                                             Declinations                                        1
       Resignations                                       0
       Suspensions                                        1                  Complaints                                          0
       Terminations                                       5                  Judgments                                           0
       Administrative referrals                          12                  Recoveries                                          0
       PFCRA3 referrals                                   0                  Total judgments and recoveries                      0
       Savings                                            0




                                    Administrative recoveries4                       $ 90,680
                                    Judicial recoveries5                             $ 188,153
                                    Total Investigative Recoveries                   $ 278,833



                            1
                              This appendix reflects investigative statistics for the Department of State
                          only. Please see page 51 for investigative statistics related to BBG.
                            2
                              Indictments included formal criminal charges brought against a subject.
                          The manner in which charges are brought varies from country to country.
                            3
                                Program Fraud and Civil Remedies Act.
                            4
                             Includes recoveries from administrative actions, such as reimbursements
                          and savings.
                            5
                              Includes recoveries from judicial actions, including court-ordered fines and
                          restitutions and civil judgments and recoveries.


                         The statistics and narrative case descriptions of investigative activities appearing
                         in this Semiannual Report to the Congress are the result of reports received from
                         prosecutive and administrative authorities. The final actions may be changed at a
                         later date by individual use of administrative and judicial appeals processes.




36 .                                        Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000
Appendix 2: Reports Issued
Special Report

00-OIG-002            June 2000            Overseas Posts’ Compliance with Physical Security Standards


Office of Audits

00-CG-12              July 2000           Status of Interagency Working Group on U.S.G.-Sponsored International
                                          Exchanges and Training Programs
00-FM-14              June 2000           Computer Security Review of Paris Accounting and Disbursement System
                                          and Consolidated American Payroll Processing System
00-CG-16              July 2000           Grant IA-PSLJ-G7190287 Awarded to Foundation for International Arts and
                                          Education for International Exchanges and Training in the New Independent
                                          States
00-FM-017             May 2000            Foreign Service Retirement and Disability Fund’s Financial Statements
                                          for FY 1999
00-CG-019             July 2000           Awards to Town Affiliation Association of the United States, Inc., for Activities
                                          in the New Independent States
00-HR-020             July 2000           Overseas Allowances
00-CI-021             July 2000           INL-Administered Programs in Columbia
00-FM-022             June 2000           U.S. Department of State 1999 and 1998 Principal Financial Statements
00-FM-023             Sept. 2000          International Boundary and Water Commission’s Balance Sheet for FY 1999
00-FM-024             June 2000           Federal Agencies’ Centralized Trial Balance System Agreed-Upon Procedures
                                          and Findings
00-FM-025             July 2000           Tracking and Monitoring Emergency Supplemental Appropriation Funds
00-CG-026             July 2000           Audit of Termination Claim Submitted by Farinha, DBA Paragon Construction
                                          Under Contract Number S-FBOAD-97-C-0019
00-CI-028             Sept. 2000          Exchange Visitor Program Needs Improved Management and Oversight
00-CI-029             Sept. 2000          Embassy Bogota’s Counternarcotics Program: Legajos Account Administration
00-CI-030             Sept. 2000          Embassy Bogota’s Counternarcotics Program: Fondo Rotatorio Account
                                          Administration
00-CI-031             Sept. 2000          Embassy Bogota’s Counternarcotics Program: Aviation Fuel Accountability
00-CG-032             Sept. 2000          FY 1996-98 Indirect Cost Rates and Claimed Costs for Selected Grants
                                          Awarded to the American Councils for International Education for Activities
                                          in the New Independent States
00-FM-034             Sept. 2000          International Cooperative Administrative Support Services Program’s 1999 and
                                          1998 Financial Statements

Office of Inspections

ISP/I-00-10           May 2000             Embassy Managua, Nicaragua
ISP/I-00-11           May 2000             Embassy San Salvador, El Salvador
ISP/I-00-12           May 2000             Embassy Buenos Aires, Argentina
ISP/I-00-13           July 2000            Embassy Santiago, Chile
ISP/I-00-14           July 2000            Embassy Gaborone, Botswana




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                            37 .
ISP/I-00-15       July 2000     Embassy Addis Ababa, Ethiopia
ISP/I-00-16       Aug. 2000     U.S. Mission to the Organization for Security and Cooperation in Europe
ISP/I-00-17       Aug. 2000     U.S. Mission to the United Nations Organization in Vienna, Austria
ISP/I-00-18       Aug. 2000     Embassy Vienna and Consular Agency Salzburg
ISP/I-00-20       Aug. 2000     Regional Program Office in Vienna, Austria
ISP/I-00-21       Sept. 2000    Embassy Ottawa, Canada



Office of Security and Intelligence Oversight

Security Audit
SIO/A-00-48       Sept. 2000    The Department’s Counterintelligence Program

Security Inspections
SIO/I-00-23        May 2000     Embassy Riga, Latvia
SIO/I-00-29        April 2000   Embassy Vilnius, Lithuania
SIO/I-00-30        April 2000   Embassy Ljubljana, Slovenia
SIO/I-00-32        May 2000     Embassy Berlin, Germany, and Constituent Posts
SIO/I-00-35        May 2000     Embassy Budapest, Hungary
SIO/I-00-38        June 2000    Embassy Chisinau, Moldova
SIO/I-00-40        July 2000    State Annex 26, Beltsville, Maryland
SIO/I-00-43        Aug. 2000    Embassy Algiers, Algeria
SIO/I-00-46        Aug. 2000    Use of Tones with the Selectone Emergency Notification System
SIO/I-00-49        Sept. 2000   Embassy Warsaw, Poland and Consulate General Krakow
SIO/I-00-52        Sept. 2000   Embassy Athens, Greece and Consulate General Thessaloniki
SIO/I-00-54        Sept. 2000   Embassy Dhaka, Bangladesh

Security Evaluation
SIO/E-00-33        May 2000     Embassy Luanda, Angola
SIO/E-00-50        Sept. 2000   Embassy, Kampala, Uganda

Moscow Oversight
SIO/M-00-45      July 2000      Moscow Secure Chancery Facility Project

Followup Review
SIO/C-00-53       Sept. 2000    Embassy London, United Kingdom, and Constituent Posts



Contract Audits

Contractor                                      Audit Number                                  Type
Pacific Environmental Services                  PA-BB-CG-0024a                                Labor Hour Rates
URS                                             PA-BB-CG-0024b                                Labor Hour Rates
Project Management Services                     PA-BB-CG-0024c                                Labor Hour Rates
McKissack & McKissack                           PA-BB-CG-0025a                                Labor Hour Rates
Karn, Charuhas, Chapman & Twohey                PA-BB-CG-0025b                                Labor Hour Rates
Washington Group International                  PA-BB-CG-0029                                 Labor Hour Rates
DMJM/Berger, Joint Venture                      PA-CC-CG-0002                                 Labor Hour Rates
KC Industries                                   PA-CC-CG-0003                                 Labor Hour Rates
Ayres Corporation                               PA-BB-CG-0035                                 Financial Capability



 38 .                              Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000
Appendix 3: Savings & More Effective Use of Resources
                                                Table I
                                INSPECTOR GENERAL ISSUED AUDIT REPORTS1
                                        WITH QUESTIONED COSTS2


                                                                       Number            (Dollars in Thousands)
                                                                      of Reports Questioned Costs Unsupported Costs


        A.  For which no management decision has been
            made by the commencement of the reporting
            period                                                            11               6,822                 388
        A1. Adjustment                                                         0                   0                   0
        A2. Adjusted Balance                                                  11               6,822                 388

        B.     Which were issued during the reporting period                   3               2,828               1,213

        Subtotals (A2 + B)                                                    14               11,251            16,018

        C.     For which a management decision was made
               during the reporting period                                     1                   47                   0
               – based on formal administrative
                   or judicial appeal
               (i) dollar value of disallowed costs                            0                    0                   0
               (ii) dollar value of costs not disallowed                       0                    0                   0


        D.     For which no management decision has been
               made by the end of the reporting period                        13               11,204            16,018

               Reports for which no management decision
               was made within 6 months of issuance                           10               6,775                 388




        ––––––––––––––––––


         1
             Includes audit reports issued by the Office of Audits and by the Office of Security and Intelligence Oversight.   .
         2
           Questioned costs are costs that are questioned by the OIG because of an alleged violation of a provision of a
        law, regulation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure
        of funds; a finding that, at the time of the audit, such costs are not supported by adequate documentation; or a finding
        that the expenditure of funds for the intended purpose is unnecessary or unreasonable.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                                       39 .
                                        Table II
                        INSPECTOR GENERAL ISSUED AUDIT REPORTS
                 WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE1


                                                                                    Number                Dollar Value
                                                                                   of Reports           (in thousands)


       A. For which no management decision has been made
          by the commencement of the reporting period                                   6                   1,447

       B. Which were issued during the reporting period                                 0                        0

            Subtotals (A + B)                                                           6                   1,447

       C. For which a management decision was made
          during the reporting period                                                   0                        0

            (i) dollar value of recommendations that were
                agreed to by management                                                 0                        0
                – based on proposed management action
                – based on proposed legislative action

            (ii) dollar value of recommendations that were
                 not agreed to by management                                            0                        0

       D. For which no management decision has been
          made by the end of the reporting period                                       6                   1,447

            Reports for which no management decision
            was made within 6 months of issuance                                        6                   1,447




       ––––––––––––––––––


       1
          A “recommendation that funds be put to better use” is a recommendation by the OIG that funds could be used more
       efficiently if Department management took actions to implement and complete the recommendations, including: reduc-
       tions in outlays; deobligation of funds from programs or operations; withdrawal of interest subsidy costs on loans or loan
       guarantees, insurance, or bonds; costs not incurred by implementing recommended improvements related to the opera-
       tions of the Department, a contractor, or a grantee; avoidance of unnecessary expenditures noted in preaward reviews
       of contract or grant agreements; or any other savings which are specifically identified.




40 .                                         Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000
Appendix 4: Resolution of Reports & Recommendations
                                  PREVIOUSLY R EPORTED S IGNIFICANT A UDIT
                                 R ECOMMENDATIONS 1 P ENDING F INAL A CTION2

         Report Rec. Report Title                                                                                    First
         NumberNumber Recommendation Summary                                                                       Reported


         4-PP-014         Maintenance and Repair of Buildings Overseas                                             3/31/94
                     1. Develop a system to identify and monitor the worldwide backlog of mainte-
                        nance and repair deficiencies, including determining an acceptable level for
                        the backlog and periodically updating the backlog for corrective action
                        taken, additional deficiencies identified, and improved cost estimates.


         5-FM-007         Review of Financial Systems Development                                                  3/31/95
                     2. The Under Secretary for Management review the current alignment of
                        resources and responsibilities for system acquisition and development in
                        the Department and determine the optimal management arrangement for
                        system acquisition and development.


         93-A-34/
         ARR-95-08Grants Management Followup                                                                       3/31/95
                     5. Require monthly reporting requirements on the project’s status.
                     6. Ensure that data in the grants system is reconciled with data in other
                        grant-related systems.


         APR-96-07Exchange Visitor Information System                                                              3/31/96
                     3. Determine the feasibility of electronically transmitting J Visa data from
                        sponsor organizations to the EVIS database at USIA.




         ––––––––––––––––––


          1
            Includes audit recommendations reported as significant in semiannual reports prior to September 30, 1999, on which
         Department management has agreed to take corrective action but for which those actions are not yet complete.
          2
            Final action is recorded when a proposed course of action in response to a recommendation has been accepted by OIG
         and completed by management to OIG’s satisfaction.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                                     41 .
                                  SUMMARY OF AUDIT REPORTS
             W ITHOUT M ANAGEMENT D ECISION FOR M ORE THAN S IX M ONTHS




  Management of Secure Communications (SIO/A-97-15), March 1997
  Summary: OIG made 23 recommendations to the Director General of the Foreign Service and the
           Director of Personnel to require personnel, like IM specialists staff, who hold positions with
           access to bulk quantities of sensitive information to undergo a special counterintelligence
           screen process prior to each assignment. Three of those 23 recommendations remain
           unresolved, which were assigned to the Director General of the Foreign Service.
  Reason Unresolved: The Director General of the Foreign Service has not responded, formally or
            informally to the report and subsequent follow-up inquiries.
  To be resolved by: December 2000


  Classified (Red) Mainframe System’s Security (SIO/A-97-02), October 1996
  Summary: OIG made 14 recommendations to the Under Secretary for Management and the Assistant
           Secretary for Administration to establish a security program and plan for the system, to
           address risks found during the audit, and to ensure that responsible officials are identified
           and kept informed about the system’s security. Four of the 14 recommendations remain
           unresolved, which were assigned to the Under Secretary for Management.
  Reason Unresolved: The Under Secretary for Management has not responded formally to the report.
            However, OIG is working with that office to reach resolution on all of the recommendations.
  To be resolved by: December 2000


  Management of Sensitive Compartmented Information Access (SIO/A-98-49) September 1998
  Summary: OIG made 4 recommendations to the Assistant Secretary for Intelligence and Research
           and the Director General of Personnel to document policy and procedures on how INR will
           process SCI access requests, arbitrate waivers and disputed decisions to include DS and
           the Bureau of Personnel, and develop a reliable process for determining when SCI access
           authorizations terminate. Three of the 4 recommendations remain unresolved, which were
           assigned to the Assistant Secretary for Intelligence and Research. In discussions with
           OIG, INR has advised OIG of its plan to respond to these recommendations.
  Reason Unresolved: These recommendations were transferred to DS in May 2000 due to the Secre-
            tary of State’s transfer of authority for protection of SCI material. OIG is working with DS to
            reach resolution for these recommendations.
  To be resolved by: March 2001


  Protective Services (SIO/A-99-29), June 1999
  Summary: OIG made 25 recommendations to improve the protection provided to visiting dignitaries
           and foreign missions in the United States; 24 recommendations were made to DS, and 3 of
           these, which address centralizing all functions for the protection of foreign missions,
           transferring the authority for the ambassador’s protective detail, and implementing a policy
           restricting the number of days that agents work, remain unresolved.
  Reason unresolved: DS has not responded to these recommendations since October 1999.
  To be resolved by: December 2000




42 .                                 Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000
                                         SUMMARY OF AUDIT REPORTS
                W ITHOUT M ANAGEMENT D ECISION FOR M ORE THAN S IX M ONTHS




         Overseas Telephone Systems Security Management (SIO/A-00-01), November 1999
         Summary: OIG made 19 recommendations to find solutions to overseas telephone security risks; 14
                  of these remain unresolved. Two of the unresolved recommendations were assigned to the
                  Chief Information Officer, and 6 of the unresolved recommendations were assigned to DS.
         Reason unresolved: OIG is working with DS and with the Chief Information Officer to reach resolution
                   on all of the recommendations.
         To be resolved by: December 2000


         International Development Exchange (A-92-24), November 1992
         Summary: OIG made recommendations on questioned costs of $59,497 and accounting system
                  deficiencies.
         Reason unresolved: The Department deferred a decision on the questioned costs pending completion
                   of OIG’s investigation, which was referred to the Justice Department in July 1994.
         To be resolved by: Unknown; case in litigation


         Delphi International Group (A-92-23), December 1992
         Summary: OIG questioned grant costs totaling $253,772, which included costs associated with an
                  OIG investigation. In September 1997, the Department of Justice reached a settlement with
                  Delphi on the investigation, but $117,179 in audit costs remain unresolved.
         Reason unresolved: The Department is seeking clarification and documentation from the grantee.
         To be resolved by:         December 2000

         North/South Center (ARR-94-03), March 1994
         Summary: OIG recommended that USIA seek reimbursement of $1,507,261 in questioned costs,
                  approximately $1 million of which resulted from an inequitable allocation of indirect costs to
                  the Center. The Department of Health and Human Services, which has audit cognizance,
                  established new indirect cost rates.
         Reason unresolved: The Department deferred action on about $480,000 in remaining questioned
                   costs pending further consultation with the Bureau of Educational and Cultural Affairs and
                   awaiting additional information from the bureau.
         To be resolved by:         December 2000


         Delphi International Group (ALR-94-03), March 1994
         Summary: OIG questioned grant costs totaling $202,188, which included costs associated with an
                  OIG investigation. In September 1997, the Department of Justice reached a settlement with
                  Delphi on the investigtion, but $110,147 in audit costs remain unresolved.
         Reason unresolved: The Department is seeking clarification and documentation from the grantee.
         To be resolved by:         December 2000




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                       43 .
 Broadcasting Board of Governors


OIG Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    49

Appendix 1: Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              51

Appendix 2: Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            51

Appendix 3: Savings and More Effective Use of Resources
      Table 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           52
      Table 2: Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                52

Appendix 4: Resolution of Reports and Recommendations
      Audit Reports Pending Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           53




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                                                                         47 .
OIG Activities
                            OFFICE OF AUDITS


Broadcasting Board of
Governors Transmission
Delivery System
(00-IB-033)
The overall objective of this review                OIG found that while BBG has               OIG also recommended that this
was to evaluate the BBG plans and              an agencywide strategic plan, it                plan should demonstrate how the
initiatives for the management and             does not comprehensively address                BBG will support U.S. foreign poli-
operation of its worldwide broad-              the transmission delivery system or             cy objectives during crises abroad.
cast transmission delivery system.             how the agency plans to provide                      The report also notes that the
This system broadcasts daily to                surge capacity to support U.S. for-             BBG transmitting stations them-
more than 90 countries in 61 differ-           eign policy objectives during crises            selves were well managed and
ent languages primarily by radio and           abroad. BBG has recently complet-               operated. The stations’ ability to
TV transmissions. It is the primary            ed several studies and assessments              maximize their operational capabili-
infrastructure that the United States          that can provide a framework for                ties by transmitting the right pro-
uses for all of its nonmilitary inter-         assessing and planning for the                  gram, on the right frequency, at the
national broadcasting, is valued at            transmission delivery system.                   right time averaged about 99.5 per-
more than $1.5 billion, and costs in           Strengthening strategic planning will           cent. Although the stations are well
excess of $100 million annually to             bring the BBG more in line with the             managed, OIG identified opportuni-
operate.                                       policy formulation and planning                 ties to improve the management and
                                               guidance provided by OMB Circu-                 operations of the delivery system
                                                     lar A-11. OIG recommended                 including
                                                                that the BBG
                                                                     address more               • improving the level and timeli-
                                                                     comprehensive-            ness of IBB personnel support for
                                                                     ly its strategic          station employees,
                                                                     plans for the              • ensuring construction expertise
                                                                     transmission              is available for transmitting stations,
                                                                     delivery system           and
                                                                     either within
                                                                     its agencywide             • improving management controls
                                                                     plan or in a              by implementing a compliance-mon-
                                                                     separate plan-            itoring process for affiliate broad-
                                                                     ning document.            casts.

        BBG transmitting station in Bangkok, Thailand.




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                                     49 .
                              OFFICE OF INSPECTIONS



       International Broadcasting Bureau (IBB) Technical
       Monitoring Office in Vienna, Austria (ISP/I-00-19)
       Embassy Vienna hosts the IBB Technical Monitoring Office, one of the
       U.S. Government’s several regional operations located in Vienna and
       staffed by two local employees. The operation appears to be efficient, the
       staff competent, morale high, and relations with the Embassy excellent.
       The monitoring office checks on broadcasts to Europe, including Russia,
       and to Africa and the Middle East, including India. The operation uses auto-
       matic remote monitoring systems based in 14 different locations throughout
       these regions and functions 24 hours a day, 7 days a week. The inspection
       made one recommendation concerning management of the certification
       of the time and attendance of the employees. The current approach is not
       appropriate.




                             OFFICE OF SECURITY AND
                             INTELLIGENCE OVERSIGHT


       During this reporting period, OIG conducted a security oversight inspection
       of the BBG Relay Station, Kavala, Greece. The need for security improve-
       ments includes installation of an imminent danger notification system, shat-
       ter-resistant window film, and enhanced physical and procedural security
       measures for the office building. This inspection is summarized in the clas-
       sified annex to this semiannual report.




50 .   Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000
Appendix 1: Investigative Activities
                                           Workload

                                           Cases pending 3/31/00                                   1
                                           New cases opened                                        0
                                           Cases closed                                            1
                                           Cases pending 9/30/00                                   0


                                           Total Judicial Actions                                  0



                                           Total Administrative Actions                            0




                             The statistics and narrative case descriptions of investigative activities appearing
                             in this Semiannual Report to the Congress are the result of reports received from
                             prosecutive and administrative authorities. The final actions may be changed at a
                             later date by individual use of administrative and judicial appeals processes.




Appendix 2: Reports Issued
Office of Audits
00-IB-033               Sept. 2000                BBG Transmission Delivery System


Office of Inspections
ISP/I-00-19             Aug. 2000                 IBB Technical Monitoring Office in Vienna, Austria


Office of Security and Intelligence Oversight
SIO/I-00-47             Aug. 2000                 Broadcasting Board of Governors Relay Station, Kavala, Greece




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                        51 .
Appendix 3: Savings & More Effective Use of Resources
                                                     Table I
                                      INSPECTOR GENERAL ISSUED AUDIT REPORTS
                                              WITH QUESTIONED COSTS
                                                                  Number            (Dollars in Thousands)
                                                                 of Reports Questioned Costs Unsupported Costs

       A.   For which no management decision has been made
            by the commencement of the reporting period                 0                    0                     0

       B.   Which were issued during the reporting period               0                    0                     0

            Subtotals (A + B)                                           0                    0                     0

       C.   For which a management decision was made
            during the reporting period                                 0                    0                     0

            – based on formal administrative or
                judicial appeal
            (i) dollar value of disallowed costs                        0                    0                     0
            (ii) dollar value of costs not disallowed                   0                    0                     0


       D. For which no management decision has been
          made by the end of the reporting period                       0                    0                     0

            Reports for which no management decision
            was made within 6 months of issuance                        0                    0                     0



                                                  Table II
                                   INSPECTOR GENERAL ISSUED AUDIT REPORTS
                            WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                                                Number                Dollar Value
                                                                               of Reports           (in thousands)

       A.   For which no management decision has been made
            by the commencement of the reporting period                              0                        0

       B.   Which were issued during the reporting period                            0                        0

            Subtotals (A + B)                                                        0                        0

       C.   For which a management decision was made
            during the reporting period                                              0                        0

            (i) dollar value of recommendations that were
                agreed to by management                                              0                        0
                – based on proposed management action
                – based on proposed legislative action

            (ii) dollar value of recommendations that were
                 not agreed to by management                                         0                        0

       D.   For which no management decision has been
            made by the end of the reporting period                                  0                        0

            Reports for which no management decision
            was made within 6 months of issuance                                     0                        0




52 .                                       Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000
                                            SUMMARY OF AUDIT REPORTS
                   W ITHOUT M ANAGEMENT D ECISION FOR M ORE THAN S IX M ONTHS




            Radio Marti Policies and Procedures (99-IB-010) June 1999


            Summary: OIG recommended that the Broadcasting Board of Governors establish policies and
                      procedures so that future evaluation panels can assess whether the foreign policy
                      requirements of the Voice of America Charter and the 1994 International Broad-
                      casting Act are being met.


            Reason Unresolved: BBG disagrees with the recommendation and believes there are sufficient
                       mechanisms in place to ensure that broadcasts satisfy statutory requirements. On
                       April 13, 2000, BBG cited as further support for this position the recently completed
                       legislatively mandated review of BBG language services. According to BBG, this
                       review process, carried out in consultation with the Department of State, is a
                       valuable method of assessing whether BBG broadcasting remains consistent with
                       U.S. foreign policy objectives. Although the language reviews are important, they
                       do not address the content of programs aired by BBG, which is the intent of the
                       recommendation. Instead, such reviews assess the focus of BBG programming and,
                       as necessary, the need to reallocate resources to areas of higher priority. Further-
                       more, in a March 2000 response to BBG, OIG pointed out that it would reserve
                       judgement on resolution of this recommendation until it received BBG’s March 31,
                       2000, report to the Congress on OIG’s Radio Marti recommendations, including the
                       one now without a management decision. On August 29, 2000, OIG again requested
                       that BBG provide a copy of the issued report so that OIG may consider it in coming
                       to a mutually acceptable resolution of the recommendation.


            To be resolved by: November 2000




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                   53 .
Abbreviations
        A/FBO   Office of Foreign Buildings Operations
         ACIE   American Councils for International Education
         BBG    Broadcasting Board of Governors
         CNP    Columbian National Police
           DS   Bureau of Diplomatic Security
          ESA   Emergency Supplemental Appropriations
         EUR    Bureau for European Affairs
          EVP   Exchange Visitor Program
        FACTS   Federal Agencies Centralized Trial-Balance System
          FAS   Foreign Agricultural Service
          FBI   Federal Bureau of Investigation
          FCS   Foreign Commercial Service
          FSN   Foreign Service national
        FSRDF   Foreign Service Retirement and Disability Fund
          FTA   Free trade agreement
        GMRA    Government Management Reform Act
         IAWG   Interagency Working Group
          IBB   International Broadcasting Bureau
         IBWC   International Boundary and Water Commission
        ICASS   International Cooperative Administrative Support Services
          INL   Bureau of International Narcotics and Law Enforcement Affairs
          INS   Immigration and Naturalization Service
           IT   Information technology
         MPP    Mission performance plan
         NAS    Narcotics Affairs Section
          NIS   New Independent States
          OIG   Office of Inspector General
         OSCE   Organization for Security and Cooperation in Europe
         RPO    Regional Program Office
        USAID   U.S. Agency for International Development
        UNVIE   U.S. Mission to the United Nations Organization in Vienna, Austria
         USIA   United States Information Agency
          Y2K   Year 2000



54 .                 Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000
                                    INDEX OF REPORTING REQUIREMENTS
                              INSPECTOR GENERAL ACT OF 1978, AS AMENDED


    REQUIREMENT              SUBJECT                                                           PAGE NUMBERS

    Section 4(a)(2)          Review of legislation and regulations                                      7-10
    Section 5(a)(1)          Significant problems, abuses, and deficiencies                      15-29, 49-50
    Section 5(a)(2)          Significant recommendations for corrective action                   15-29, 49-50
    Section 5(a)(3)          Prior significant recommendations unimplemented                              41
    Section 5(a)(4)           Matters referred to prosecutive authorities                           30-35, 50
    Section 5(a)(5)           Information or assistance refused                                        None
    Section 5(a)(6)           List of reports issued                                                   37, 51
    Section 5(a)(7)          Summaries of significant reports                                    15-29, 49-50
    Section 5(a)(8)          Audit reports–questioned costs                                            39, 52
    Section 5(a)(9)           Audit reports–funds to be put to better use                              40, 52
    Section 5(a)(10)          Prior audit reports unresolved                                           42, 53
    Section 5(a)(11)         Significant revised management decisions                                  None
    Section 5(a)(12)         Significant management decisions with which OIG disagreed                 None




Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000                    55 .
                                              Requests for additional copies of this
                                             publication should be addressed to:

                                                    Office of Inspector General
                                                    U.S. Department of State
                                                    OIG/PPM/RR, Room 810
                                                    1700 North Moore Street
                                                    Arlington, VA 22209




                                   Department of State Publication 10785
                                                  Office of Inspector General
                                                  Released November 2000


Office of Inspector General Semiannual Report to the Congress, April 1 to September 30, 2000   59 .
